<html>
<title> - PAKISTAN: BALANCING REFORM AND COUNTERTERRORISM</title>
<body><pre>[Senate Hearing 108-698]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-698

             PAKISTAN: BALANCING REFORM AND COUNTERTERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 14, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                      U.S. Government Printing Office
96-923 PDF                 Washington : 2004
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    33
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Nasr, Dr. Vali R., professor, Department of National Security 
  Affairs, Naval Postgraduate School, Monterey, CA...............     9
    Prepared statement...........................................    12
Schaffer, Hon. Teresita C., South Asia Program Director, Center 
  for Strategic and International Studies, Washington, DC........     2
    Prepared statement...........................................     6
Weinbaum, Dr. Marvin G., Scholar-in-Residence, Middle East 
  Institute, Washington, DC......................................    18
    Prepared statement...........................................    21

                                 (iii)

  

 
            PAKISTAN: BALANCING REFORM AND COUNTERTERRORISM

                              ----------                              


                        WEDNESDAY, JULY 14, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 9:34 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Richard G. Lugar (chairman of the 
committee), presiding.
    Present: Senators Lugar, Chafee, Biden, and Bill Nelson.


        OPENING STATEMENT OF SENATOR RICHARD G. LUGAR, CHAIRMAN


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    The Foreign Relations Committee meets today for an 
important discussion on Pakistan, a key ally of the United 
States in the global war on terrorism. Pakistan's efforts 
against terrorists within its borders, its stewardship of its 
own nuclear arsenal, and its relations with other nations in 
the region are critical to global security. The commitment of 
the U.S. Government to provide Pakistan with $3 billion in 
assistance over 5 years is a measure of Pakistan's importance 
to our own national security objectives.
    President Musharraf faces immense challenges in rooting out 
extremism and putting Pakistan on a stable path toward economic 
development and democracy. He has called for modernization and 
conciliation across the Islamic world to reverse the spread of 
terrorist influences and movements. Pakistan has improved its 
economic performance over the last 2 years and increased 
spending on health and education.
    To be fully successful, Pakistan's efforts at reform and 
modernization will require broad-based participation by the 
Pakistani people. Institutional checks and balances, along with 
accountability and transparency, are important elements needed 
for long-term stability in Pakistan. The international 
community and the United States should support reforms and 
contribute to the strengthening of Pakistani civilian 
institutions.
    Pakistan's stability also is intricately tied to the 
pursuit of peace with India through comprehensive negotiations. 
For many years, Pakistan's conflict with India has sapped its 
resources and distracted its attention from reducing poverty 
and enhancing its economic potential. The United States has 
strongly encouraged Pakistan and India to continue their dialog 
in the issues that divide them. The 8-month cease-fire along 
the Line of Control in Kashmir is the longest such cease-fire 
in more than a decade. This progress, coupled with the nuclear 
confidence-building measures, to which both sides agreed last 
month, could help build momentum for a more permanent and more 
deeply-rooted strategic stabilization of South Asia.
    The substantial increase in United States assistance for 
Pakistan is intended to help Pakistan meet these challenges. We 
must think carefully about how we balance military and economic 
assistance to promote security, development, strengthened 
democratic institutions, and improved education. Military 
assistance provides communications, firepower, and mobility, 
three capabilities that are essential to the Pakistani army's 
efforts to track down and apprehend al-Qaeda operatives. U.S. 
economic and technical assistance programs support social 
sector development, particularly in areas like education 
reform.
    In August 2002, USAID signed a 5-year $100 million grant 
agreement with the Government of Pakistan to support reform of 
the public education system, with emphasis on early childhood 
and teacher education. Currently only 42 percent of Pakistani 
children between the ages of 5 and 9 are enrolled in school, 
and less than half of these children complete 5 years of 
schooling. The failing public education system in Pakistan has 
prompted many parents to send their children to madrassahs, 
religious schools. Some of these schools incite violence and 
serve as a breeding ground for terrorists. The Pakistan 
Government has taken some steps to address the problem 
surrounding the religious schools, but much more needs to be 
done.
    Today we welcome a distinguished panel to help us review 
the status of U.S.-Pakistan relations and to assess the 
Pakistan Government's efforts to combat terrorism and implement 
reforms. With us are Ms. Teresita Schaffer, the South Asia 
Program Director of the Center for Strategic and International 
Studies; Dr. Vali Nasr, Professor of Middle East and South Asia 
Politics at the Naval Postgraduate School in Monterey, 
California; and Dr. Marvin Weinbaum from the Middle East 
Institute.
    We look forward to the insights of each of these witnesses. 
We welcome them to the committee table today as they propose 
recommendations for United States policy toward Pakistan.
    Let me mention that the distinguished ranking member 
Senator Biden's train is due in shortly. It has been delayed. 
When Senator Biden arrives, I will recognize him for his 
opening statement.
    But for the moment, we will proceed with the testimony of 
our witnesses, and we look forward to their testimony. I will 
ask you to testify in the order I introduced you. That would 
be, first of all, Ms. Teresita Schaffer. Would you please 
proceed.

  STATEMENT OF HON. TERESITA C. SCHAFFER, SOUTH ASIA PROGRAM 
    DIRECTOR, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ambassador Schaffer. Thank you, Mr. Chairman, and thank you 
for inviting me to share my views with the committee.
    This discussion of Pakistan is both timely and important. 
Policy toward Pakistan has always attracted more than its share 
of controversy, in part because of the heavy list of U.S. 
interests that are in play and in part because of the internal 
stresses that have affected Pakistan over the years.
    I believe that the United States needs to adopt a 
comprehensive strategy toward Pakistan or we risk failing in 
all of our objectives. Focusing primarily on one goal, even a 
vitally important one like counter-terrorism, is a false choice 
because the issues we face in Pakistan are so intimately 
connected. I recommend that we use our assistance and our 
diplomatic leverage in three predominant ways.
    First, generous economic assistance, most of it 
specifically programmed toward the rebuilding of Pakistan's 
institutions rather than in cash.
    Second, a security relationship conditioned on a Pakistani 
foreign policy compatible with U.S. security interests.
    And third, an active diplomatic posture, encouraging India 
and Pakistan to work toward robust nuclear risk reduction and a 
durable settlement.
    I will go through each of these elements in turn, but first 
let me set the context.
    The United States has extraordinarily ambitious hopes and 
objectives in Pakistan.
    First, combating terrorism. We seek to put out of business 
the terrorist organizations that have operated from Pakistan 
and Afghanistan.
    Second, maintaining peace in the region, eliminating if 
possible the risk that two nuclear-armed rivals, Pakistan and 
India, will go to war, providing support for a durable peace 
process, and helping Pakistan and Afghanistan rebuild a decent 
relationship.
    Third, ending nuclear transfers, trying to ensure that 
Pakistan's nuclear assets and know-how are not transferred, and 
that the nuclear bazaar maintained by Pakistani scientist, A.Q. 
Khan, is fully revealed and disabled.
    And fourth, rebuilding Pakistan's political institutions 
which are the foundation of any kind of decent government and 
certainly of any kind of democratic government, which I believe 
is what most Pakistanis want.
    This is a heavy agenda, which the United States has 
attempted to deal with by policy triage and by focusing on the 
personal leadership of President Musharraf. In practice, high 
level dialog between Pakistan and the United States has been 
dominated by the anti-terrorism issue.
    Both the triage and the personal focus are, I believe, 
flawed concepts. By focusing such a high percentage of our 
dialog on anti-terrorism, I fear we are leaving Pakistan with 
the impression that as long as it satisfies the most urgent 
U.S. demands on the anti-terrorism front, the United States 
will look the other way if our policies diverge in other areas. 
We have already seen that this really is not true. A crisis in 
India-Pakistan relations, as happened in 2002 or a crisis on 
nuclear transfers, as happened late last year, quickly brings 
these issues to the top of the United States' to-do list.
    More importantly, triage neglects the connections among the 
issues on the U.S. agenda. If we really want to help Pakistan 
to dismantle its terrorist infrastructure, we have to help 
Pakistan deal with the other ramifications of that terrorist 
infrastructure in Kashmir and India-Pakistan relations and we 
have to address the connections between India-Pakistan rivalry 
and the nuclear issue.
    I also believe that the U.S. tendency to build its policy 
around the person of President Musharraf is a mistake. Clearly 
leaders are important, especially in troubled times. My 
argument is that we need to have a broader base to our policy. 
President Musharraf is certainly important, but we need to act 
as if the institutions in Pakistan, including the parliament 
and the elected government, are important, even on those 
occasions when Musharraf acts as if they are not.
    This brings me back to the U.S. strategy for dealing with 
Pakistan. A comprehensive strategy, which is what I am 
recommending, would have many elements to it, but I would like 
to address three that are intimately connected to issues the 
Congress will be asked to vote on.
    The first is economic assistance. The administration has 
requested a total of $350 million in economic assistance for 
the coming fiscal year when you combine ESF and DA. It proposes 
to provide $200 million of that in cash, or debt relief, which 
is the equivalent, and the remainder under specific programs. I 
believe that two-thirds rather than half of the U.S. ESF 
package--that would be $400 million in ESF plus the planned $50 
million in DA--should be devoted to economic assistance, and 
that at least $250 million per year should be programmed, half 
of it for activities that rebuild Pakistan's institutions and 
its educational system. This economic assistance, I would 
argue, should be provided without foreign policy conditions.
    Which institutions am I talking about rebuilding? I would 
start with the judiciary, the civil service, the police, and 
the institutions that administer water and power. Financial 
support will make institutional reform an even more attractive 
option than it already is for the government.
    These are the institutions on which any kind of decent 
government depends. Without institutions, there really is no 
possibility of democratic government. You can have elections, 
but you will have no counterweight to the power of the 
Presidency in between elections. Therefore, institutional 
rebuilding, to my way of thinking, is the best way and the only 
serious way to structure a democracy policy. It will not bring 
democracy soon, but it is the only chance of helping democracy 
grow over time.
    On education, I know you will hear from the other witnesses 
on this subject. I would like to put in a plea for rebuilding 
Pakistan's public schools rather than strictly focusing on 
madrassah reform. If you want to ask me more details about 
that, I will be happy to answer questions.
    Pakistan today is in better economic shape than it has been 
in many years. But two ingredients are still needed for a 
healthy economic environment. One of these is increased 
investment in productive capacity, and the other is increased 
social spending. Both are currently very low by international 
standards despite the verbal understandings between the U.S. 
and Pakistani Governments on how our cash assistance should be 
spent. This is to my mind another reason to try to program more 
of our assistance.
    The second strategic element I wish to discuss is a 
security relationship. Both the nature of Pakistan's problems 
and the historical role of its military make it essential to 
keep up active communication between their military and ours 
and a serious dialog between our two governments on security 
issues. Pakistan has a longstanding sense of insecurity, 
stemming from its rivalry with a much larger neighbor. Its 
friends need to take that seriously.
    But the United States should be selective about military 
supply. Pakistan has real security needs, but it has also 
periodically undertaken reckless policies that were strongly 
contrary to U.S. interests. The incursion into Kargil 5 years 
ago is a case in point. So is Pakistan's unwillingness to 
abandon the option of returning to active support for the 
Kashmir insurgency. Therefore, I would argue that the U.S. 
supply of major weapons systems should proceed only if we are 
confident that Pakistan's foreign and security policy is 
compatible with U.S. interests.
    The third element to U.S. policy, an active diplomacy on 
India-Pakistan peace, is the other side of that coin. Happily, 
as you noted, Mr. Chairman, India and Pakistan have now resumed 
an active dialog and they have basically restored their 
bilateral relations to about where they were before the bombing 
of the Indian parliament in December 2001.
    I hope that the coming months will see real decisions by 
India and Pakistan, to create some visible successes in the 
short term and to lay the groundwork for peace in the longer 
term. Two great places to start would be by opening the road 
between the two parts of Kashmir, something that both sides say 
they want to do, and by negotiating an electric grid connection 
between the two parts of Kashmir and effectively between India 
and Pakistan, a much more ambitious goal.
    Another useful early step would be to strengthen the risk-
reduction measures that India and Pakistan have agreed on from 
time to time. I was delighted that the Indian and Pakistani 
foreign secretaries agreed last month to strengthen the hot 
lines between the two countries, both at the military level and 
between themselves, between the two foreign secretaries.
    Let me diverge for just a moment to tell the committee 
about an interesting exercise that I participated in earlier 
this year. My colleague Bob Einhorn from CSIS organized three 
meetings with a distinguished group of former military 
officers, civilian officials, and academics from India and 
Pakistan and a small team of Americans to see whether the 
concept of nuclear risk reduction centers could be adapted to 
be a useful mechanism for India and Pakistan. The group 
concluded that the model used by the United States and Russia 
was not suitable, but that a new communications mechanism would 
be useful. In their concept, the mechanism would provide a 
dedicated, secure means of doing three things: first, each side 
notifying the other about activities or events on its territory 
that might be misperceived or misinterpreted, leading to 
conflict; second, exchanging information that the two countries 
are obliged to exchange under existing security agreements; and 
third, seeking and receiving clarifications about ambiguous 
events on the territory of the other. The group also concluded 
that the infrastructure in the region could support such a 
mechanism for a relatively modest cost.
    The Indian and Pakistani members of the group shared our 
report with their respective governments, and it is now up to 
those governments to decide whether these ideas are useful.
    Coming back to U.S. policy, my key point is that the United 
States needs to be actively, strategically, and discreetly 
involved in helping India and Pakistan move their peace process 
forward. The new government in India will need some time to 
figure out how it is comfortable interacting with the United 
States on this sensitive issue, but I remain convinced that a 
serious and sophisticated U.S. diplomatic effort will be very 
important to the success of this enterprise.
    Let me conclude with a thought about hyphenation, or 
linkage between our relations with India and Pakistan. The 
United States has, as far back as I can remember, tried to 
avoid treating India and Pakistan policy as if they were joined 
at the hip. That is a proper goal, but frankly both India and 
Pakistan make it hard to achieve. They relentlessly keep score 
on U.S. affections. Each of them ultimately needs to understand 
that a close tie with Washington is not going to diminish 
American ties with the other. That is a tough message 
particularly for Pakistan. Pakistan is understandably 
suspicious about the blossoming of U.S.-Indian relations in the 
last few years, the more so because they have had doubts for 
decades about the reliability of their ties to the United 
States. The strategy I suggest here is in no way incompatible 
with the expansion of U.S.-India ties, which I consider to be 
one of the key elements of U.S. policy toward Asia. In short, 
we have to do both.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Schaffer follows:]

            Prepared Statement of Hon. Teresita C. Schaffer

          u.s. strategy in pakistan: high stakes, heavy agenda
    Mr. Chairman, thank you for inviting me to share my views with the 
Committee. Your discussion of Pakistan is timely and important. 
Pakistan's future matters profoundly to the United States. Policy 
toward Pakistan has always attracted more than its share of 
controversy, in part because of the heavy list of U.S. interests that 
are in play, and in part because of the internal stresses that have 
affected Pakistan over the years.
    I believe that the United States needs to adopt a comprehensive 
strategy toward Pakistan, or risk failing in all of our objectives. 
Focusing primarily on one goal, even a vitally important one like 
counter-terrorism, is a false choice, because the issues we face in 
Pakistan are so intimately connected. I recommend that we use our 
assistance and our diplomatic leverage in three ways:

  <bullet> Generous economic assistance, most of it specifically 
        programmed toward the rebuilding of Pakistan's institutions 
        rather than in cash;

  <bullet> A security relationship conditioned on a Pakistani foreign 
        policy compatible with U.S. security interests; and

  <bullet> An active diplomatic posture, encouraging India and Pakistan 
        to work toward robust nuclear risk reduction and a durable 
        settlement.

    I will go through each of these elements in turn, but first, let me 
set the context.
    The United States has extraordinarily ambitious hopes and 
objectives in Pakistan.

  <bullet> Combating terrorism: The United States seeks to put out of 
        business the terrorist organizations that have operated from 
        Pakistan and Afghanistan, as well as the organizations that 
        have given them support and sanctuary. I'm referring chiefly to 
        Al Qaeda and their supporters in the Taliban, but also to 
        radical militant organizations that have established a base in 
        Pakistan.

  <bullet> Maintaining peace in the region: The United States wants to 
        reduce and if possible eliminate the risk that the two nuclear-
        armed rivals, Pakistan and India, will go to war, and to 
        provide appropriate support for a durable peace process. It 
        also wants Pakistan and Afghanistan to build a constructive 
        relationship, despite their complicated history.

  <bullet> Ending nuclear transfers: The United States seeks to ensure 
        that Pakistan's nuclear assets and know-how are not transferred 
        outside of Pakistan, and that the nuclear bazaar maintained by 
        Pakistani scientist A.Q. Khan is fully revealed and fully 
        disabled.

  <bullet> Rebuilding Pakistan's political and economic institutions: 
        Finally, the United States wants to help Pakistan restore the 
        health of its institutions, and move toward sustainable, 
        effective, and decent government. I believe that this means 
        democratic government, and that this is what most Pakistanis 
        want, but I do not believe that full democratic government will 
        happen soon.

    This is a heavy agenda, which the United States has attempted to 
deal with by ``policy triage'' and by focusing on the personal 
leadership of President Musharraf. In practice, high-level dialogue 
between Pakistan and the United States has been dominated by the anti-
terrorism issue, and the U.S. government has looked on Musharraf 
personally as the man who needed to deliver Pakistan.
    Both these concepts are flawed. By focusing such a high percentage 
of our dialogue on anti-terrorism, I fear we are leaving Pakistan with 
the impression that as long as Pakistan satisfies the most urgent U.S. 
demands on the anti-terrorism front, the United States will look the 
other way if our policies diverge with respect to relations with India, 
nuclear transfers, or Pakistan's internal rebuilding efforts. We have 
already seen that a crisis in India-Pakistan relations (as happened in 
2002) or on nuclear transfers (as happened late last year) can quickly 
bring these issues to the top of the U.S. ``to do'' list.
    More importantly, ``triage'' neglects the connections among the 
issues on the U.S. agenda. Pakistan's long-standing hostile 
relationship with India and its grievances over India's possession of 
the most important parts of Kashmir have led it to support armed 
insurgency in Kashmir. It has maintained a substantial extremist 
infrastructure within Pakistan, one that has come to threaten President 
Musharraf's life. But even this threat has not led Pakistan to 
dismantle that infrastructure, because of the links between these 
extremists and Pakistan's yearning to change the status quo in Kashmir. 
In other words, if we really want Pakistan to dismantle the terrorist 
infrastructure, we have to help Pakistan deal with its other 
ramifications, in Kashmir and in India-Pakistan relations, and we have 
to address the ties between India-Pakistan rivalry and the nuclear 
commerce conducted out of Pakistan.
    I also believe that the U.S. tendency to build its policy around 
the person of President Musharraf is a mistake. Clearly, leaders are 
important, especially in troubled times. President Musharraf dominates 
the power structure in Pakistan, and many of his decisions have been 
helpful to the United States. My argument is that we need to have a 
broader base to our policy. He is not the only person who matters, 
especially if one believes, as I do, that Pakistan's ability to face 
down its internal extremists ultimately depends on its ability to 
rebuild viable political and economic institutions. We need to act as 
if these institutions mattered, even when President Musharraf does not.
    This brings me back to the U.S. strategy for dealing with Pakistan. 
A comprehensive strategy would have many elements to it, but I would 
like to address three that are intimately connected to issues the 
Congress will be asked to vote on.
    First, economic assistance. The administration has requested $350 
million in economic assistance for FY 2005 under ESF and DA. It 
proposes to provide $200 million of that in cash and the remainder 
under specific programs. I believe that two-thirds rather than half of 
the total U.S. assistance package--that would be $400 million in ESF 
plus the planned $50 million in DA--should be devoted to economic 
assistance, and that at least $250 million per year should be 
programmed, half of it for activities that rebuild Pakistan's 
institutions and its educational system. This economic assistance 
should be provided without foreign policy conditions. Pakistan's 
economic recovery and institutional rebuilding are profoundly important 
to the United States, and helping them should be a central element in 
U.S. policy.
    Which institutions? I would start with the judiciary, the civil 
service, the police, and the institutions that administer water and 
power. The Pakistan government has tried to make a start by reforming 
the Central Board of Revenue, their equivalent of the I.R.S. The effort 
was incomplete but shows that there is an interest in this type of 
reform, and plenty of talent available to devise a reform program. The 
possibility of significant financial support would make institutional 
reform an even more attractive option. Other reform targets include 
political institutions, including the parliament and provincial 
governments.
    These are the institutions on which any kind of decent government 
depends. If, as I firmly believe, Pakistan's military-dominated 
government has become an important part of its domestic problems, the 
solution has to involve developing robust institutions that can 
eventually stand up to the power of the military and the presidency. 
This is, to my mind, the way to structure a serious democracy policy. 
It will not bring democracy soon, but it is the only approach that has 
a chance of helping democracy grow over time.
    A word about education. I'm sure the other witnesses will have 
words of wisdom on the effort to reform madrassahs. This is an enormous 
task, which may be beyond the capability of Pakistan's Education 
Ministry. I would like to put in a plea for rebuilding Pakistan's 
public schools. The schools themselves exist. They need staffing, 
supervision, books, equipment, and repairs. A couple of dedicated NGO's 
have taken on the task of mobilizing corporate philanthropy to 
``adopt'' non-functioning schools, restore them, and run them. This 
type of effort is likely to have a quicker payoff and a better chance 
at the institutional support it needs.
    Economic assistance is also supposed to help the economy grow. 
Pakistan today is in better economic shape than it has been in many 
years. But two ingredients are still needed for a healthy economic 
environment. One is increased investment, initially by Pakistanis and 
eventually, one hopes, by foreigners as well. Pakistan last year 
devoted only 16.5 percent of its GDP to investment in productive 
enterprises. This is abysmally low by international standards. More 
importantly, it cannot begin to provide jobs for Pakistan's rapidly 
growing working age population. Underemployed young people are ripe for 
recruitment into terrorism and other anti-social activities.
    The other needed element is increased social investment. In 
principle, our cash aid has been conditioned on increased allocations 
to health and education. In practice, this has had relatively little 
effect. Budget expenditures on health and nutrition have risen from 0.7 
to 0.84 percent of gross domestic product, but spending on education is 
virtually unchanged as a share of GDP since 1998, and is well below the 
level of 1995 (1.8 percent, compared with 2.8 percent in 1995). The 
ineffectiveness of this effort to encourage a reallocation of 
Pakistan's resources based on a handshake is a powerful argument for 
programming a higher share of our economic assistance.
    The second strategic element I wish to discuss is a security 
relationship. Both the nature of Pakistan's problems and the historical 
role of its military make it essential to keep up active communication 
between their military and ours, and a serious dialogue between the two 
governments on security issues. Pakistan has a long-standing sense of 
insecurity stemming from its rivalry with a much larger neighbor; its 
friends need to take that seriously.
    But the United States should be selective about military supply. 
For many years we provided generous military supply on the theory that 
a robust conventional force would reduce Pakistan's perceived need to 
depend on nuclear weapons. There is something to that argument, but it 
is also true that Pakistan has periodically undertaken reckless 
policies that were strongly contrary to U.S. interests. The incursion 
into Kargil is a case in point; so is Pakistan's unwillingness to 
abandon the option of returning to active support for the Kashmir 
insurgency. Because the possibility of war between South Asia's two 
nuclear rivals is a major issue for the U.S., I believe that U.S. 
supply of major weapons systems should only proceed if we are confident 
that Pakistan's foreign and security policy is compatible with U.S. 
interests. Some of the items Pakistan would like to buy, such as the F-
16 aircraft that were denied it in 1990 (and for which we finally 
reimbursed the funds Pakistan had spent in 1998), would currently be 
inadvisable.
    The third element, an active diplomacy on India-Pakistan peace, is 
the other side of this coin. The reason Pakistan's security policy has 
been so problematic for us is that Pakistan has an unresolved dispute 
with India. Pakistan's own policy has fed that dispute, especially by 
encouraging insurgency and ultimately risking conflict with India. But 
India's reluctance to come to grips with the Kashmir issue is also part 
of the problem. Happily, India and Pakistan have resumed an active 
dialogue, and they have now restored their bilateral relations to 
roughly the situation prevailing before the bombing of the Indian 
parliament in December 2001.
    I hope that the coming months will see real decisions by India and 
Pakistan, to create some visible successes in the short term and to lay 
the groundwork for peace in the longer term. Two great places to start 
would be by opening the road between the two parts of Kashmir, and by 
negotiating an electric grid connection between the two parts of 
Kashmir (which effectively means between India and Pakistan).
    Another useful early step would be to strengthen the risk-reduction 
measures that India and Pakistan have agreed on from time to time. I 
was pleased that the Indian and Pakistani Foreign Secretaries agreed 
last month to strengthen the hotlines between the two countries' 
Directors General of Military Operations, and to reinstate a largely 
dormant hotline between the two Foreign Secretaries.
    Let me diverge for a moment to tell the Committee about an 
interesting exercise that I participated in earlier this year. My 
colleague Robert Einhorn from CSIS organized three meetings with a 
distinguished group of former military officers, civilian officials and 
academics from India and Pakistan and a small team of Americans 
knowledgeable about the region and about nuclear risk reduction. The 
purpose was to see whether the concept of Nuclear Risk Reduction 
Centers could be adapted to become a useful mechanism for India and 
Pakistan. The group concluded that the model used by the United States 
and Russia was not suitable for India and Pakistan, but that a new 
communications mechanism would be useful. This mechanism would provide 
a dedicated, secure means for each side to do three things:

          (1) Notify the other about activities or events on its 
        territory that might be misperceived or misinterpreted and lead 
        to conflict;

          (2) Exchange information that the two countries are obliged 
        to under existing security agreements; and

          (3) Seek and receive clarifications about ambiguous events on 
        the territory of the other. The group also concluded that the 
        infrastructure in the region could support such a mechanism for 
        a relatively modest cost.

    The Indian and Pakistani members of the group shared our report 
with their respective governments. It is now up to the governments to 
decide whether these ideas are useful.
    Coming back to U.S. policy, the key point is that the United States 
needs to be actively, strategically and discreetly involved in helping 
India and Pakistan move their peace process forward. Its quiet presence 
will be most needed when the process runs into snags, as it inevitably 
will. The new government in India will need some time to figure out how 
it is comfortable interacting with the United States on this sensitive 
issue. But I remain convinced that a serious and sophisticated U.S. 
diplomatic effort will be very important to the success of this 
enterprise.
    It will also be a key element in dealing with Pakistan's broader 
problems. Pakistan's chronic insecurity stems largely from its tangled 
relationship with India. In the final analysis, the only way to craft a 
sustainable U.S. security relationship with Pakistan is to help India 
and Pakistan build a new and peaceful relationship.
    Let me conclude with a thought about ``hyphenation.'' The United 
States had long sought a situation in which its relations with Pakistan 
and India could proceed on their own independent tracks. That is a 
proper goal, but both India and Pakistan make it hard to achieve. They 
relentlessly keep score on U.S. affections. Each of them, ultimately, 
needs to understand that a close tie with Washington is not going to 
diminish American ties with the other. That's a tough message. Pakistan 
is understandably suspicious about the blossoming of U.S.-Indian 
relations in the last few years, the more so because they have had 
doubts for decades about the reliability of their ties to the United 
States. The strategy I suggest here is in no way incompatible with the 
expansion of U.S.-India ties, which I consider to be one of the key 
elements of U.S. policy toward Asia.

    The Chairman. Thank you very much, doctor, for a really 
extraordinary paper. We look forward to raising questions after 
we have heard the remaining two witnesses, and we would like to 
call now upon Dr. Vali Nasr.

    STATEMENT OF DR. VALI R. NASR, PROFESSOR, DEPARTMENT OF 
      NATIONAL SECURITY AFFAIRS, NAVAL POSTGRADUATE SCHOOL

    Dr. Nasr. Thank you, Mr. Chairman. Thank you for the 
opportunity to share my observations with the committee.
    The recent surge in violence in Pakistan suggests that some 
3 years after September 11, 2001, extremism in Pakistan is once 
again on the rise and is gaining in sophistication and 
strength, posing a threat to political stability in the 
country.
    Extremism has its roots in regional turmoil that go back to 
the Afghan war which produced the infrastructure for a region-
wide network of extremists. This network has had ties with al-
Qaeda and the Taliban and, initially at least, enjoyed support 
of Pakistan's military which, since the mid-1980s, saw 
extremism as a strategic tool for managing relations with 
Afghanistan, keeping India under pressure in Kashmir, and 
helping the military manipulate domestic politics in Pakistan.
    The extremist network was also viewed as a strategic asset 
by Saudi Arabia in its attempt to contain Iran's influence in 
the region.
    The events of September 11, 2001 led to an international 
intervention in Afghanistan that dismantled the Taliban regime 
and downgraded the institutional basis of jihadi activism and 
also forced the Pakistan military to abandon its overt 
patronage of jihadi networks and to cooperate with the United 
States in the war on terror. This cooperation, however, did not 
reflect a new strategic position. The military's policy, at 
least until December 2003, when General Musharraf became the 
target of two al-Qaeda assassination attempts, was to mostly 
contain and mothball extremists, especially those active in 
Kashmir rather than eradicate them.
    The Pakistan military has continued to believe that in the 
absence of greater U.S. guarantees regarding Pakistan's long 
security interests, it is dangerous to completely remove the 
threat of extremism to Kabul and Delhi. Eradicating extremism 
would be tantamount to dismantling a weapons system without 
countervailing concessions from India or Afghanistan.
    As a result, in the past 3 years, the military has 
distinguished al-Qaeda and Taliban from jihadi forces that were 
active in Kashmir and sectarian groups that are active inside 
Pakistan. The military cooperated with the United States in 
suppressing the former while protecting the latter. In fact, 
Pakistan continues to distinguish between terrorists, those who 
have ties with al-Qaeda and the Taliban, and freedom fighters, 
those involved in jihad in Kashmir who are not tied to al-
Qaeda. Hence, the military is not concerned with all 
expressions of extremism, but only with particular extremist 
groups.
    The military has also showed great lenience in allowing 
prominent leaders of extremist groups to operate in the open. 
Key recruiters and educators associated with various madrassahs 
were never targeted by government clamp-downs. Similarly, after 
September 11, extremist organizations, which became the target 
of international condemnation, were allowed to voluntarily 
disband and then to apply for new charters and operate under 
new names. There was also little done to reduce the power and 
influence of madrassahs, which continue to produce extremists. 
This reflects that fact that Pakistan's military leaders remain 
concerned with Pakistan's position in the region once the war 
on terror comes to an end and the United States' attention 
turns elsewhere.
    In addition, many in the military, especially among junior 
officers and enlisted men, are sympathetic to Islamic extremism 
and some may have ties with them, and they hold anti-American 
attitudes. The war in Iraq has only accentuated this trend. The 
presence of these attitudes in the military has made it more 
difficult for senior commanders to effectively suppress 
extremism without risking a breach within the military.
    Since he rose to power in 1999, General Musharraf has been 
primarily concerned with legitimating military rule over 
Pakistan and extricating the influence of secular civilian 
parties, especially Nawaz Sharif's Pakistan Muslim League and 
Benazir Bhutto's PPP, from national politics and was, by 
comparison, relatively indifferent to containing Islamism. This 
has provided Islamist activists with ample time and space to 
regroup and reorganize after the initial collapse of their 
infrastructure in 2001.
    The problem of extremism is also compounded by changes in 
Pashtoon politics since 2001. Between 1994 and 2001, the 
Taliban had largely served as an expression of Pashtoon power 
in Afghanistan which has strong emotive appeal among Pakistan's 
Pashtoons. The fall of the Taliban has been viewed as the 
disenfranchisement of Pashtoons before the ascendance of the 
non-Pashtoon Northern Alliance. That both the United States and 
Pakistan military are seen as complicit in this development has 
turned Pashtoon politics anti-American and also critical of the 
Pakistan military's leadership.
    The Pashtoon anger will continue to supply extremists with 
recruits, and as tensions with the Pakistan military escalate 
and possibly anger mounts after the Afghan elections, which 
might consolidate Karzai's position in Kabul, Pashtoon 
nationalism can become a destabilizing force in both 
Afghanistan and Pakistan. It can also impact the cohesion of 
the Pakistan military, which has a significant Pashtoon 
component.
    Revisionist nationalism against a new political order in 
the region, anti-Americanism and anti-Shi'ism are all staples 
of extremism in Pakistan which have an echo in the burgeoning 
extremism in the Middle East. Al-Qaeda and Pakistani extremists 
have shared ideas and training and may well connect to extend 
their reach. Already there is suggestions that Jaish Muhammad 
fighters may have found their way to Iraq. Abu Musab al-
Zarqawi's attacks on Shia targets in Najaf and Karbala have an 
eerie resemblance to attacks on Shia places of worship in 
Pakistan, and the Ashura bombings in Najaf, Baghdad, and 
Quetta, Pakistan on March 2, 2004 are indicative of the 
potential of these linkages.
    Now, what more can be done to stem the tide of extremism? 
In the short run, more needs to be done to directly constrict 
the problem. This would mean a blanket policy of opposing all 
expressions of extremism. The government in Pakistan must also 
do more to disarm extremist groups and limit the space for the 
recruitment, training, and organization. The government must 
also take reform of madrassahs more seriously and more 
effectively limit jihadi propaganda and ability to disseminate 
their ideas through newspapers and other publications. The 
success of these measures greatly depend on changes in the 
broader political climate in Pakistan.
    In this regard, it is important to note that the fact that 
the military insists on ruling over Pakistan reduces its 
ability to contend with extremism and, in fact, necessitates 
that it undertake compromises that benefit extremism. Far from 
the proverbial bulwark against extremism, the nature of 
politics that is fostered by the military's domination has 
encouraged extremism. Whereas for the United States, extremism 
remains the primary concern; for the Pakistan military, it is 
staying in power that matters most.
    For instance, in order to secure the agreement of the 
Islamic alliance, MMA, to General Musharraf remaining both 
President and head of army until December 2004, the military 
relaxed its pressure on religious activism and backed away from 
the reform of extremist madrassahs, some of which belong to the 
constituent parties of MMA, and also shied way from pursuing 
al-Qaeda activists in south Waziristan earlier.
    The military will be far more effective in dealing with 
extremism if it were not distracted by imperatives of politics 
and was not duly concerned with political consequences of its 
security decisions. Conversely, civilian parties, when not 
hindered by the military, have done a better job of eroding the 
Islamic forces' base of support.
    To the extent that the culture of the Pakistan military is 
tolerant of Islamic activism, General Musharraf must continue 
to reform the military and clean it of supporters of extremism.
    Much of the economic assistance to Pakistan since 2001 has 
not found its way to the lower and lower middle classes. The 
impact of economic restructuring has not only made it difficult 
to wean away the youth from extremism and to absorb the product 
of madrassahs into the economy, but has created convergence 
between socioeconomic disgruntlement and extremist tendencies. 
More must be done to make sure that aid directly impacts those 
social classes most at risk of embracing extremism.
    Finally, Pakistan military must be encouraged to put forth 
a serious plan for return of power to civilian politicians. 
Opposition to authoritarianism and decay in political 
institutions is on the rise in Pakistan. It will constrict the 
military's ability to contend with the security challenges 
before it, and it can provide extremists with the kind of 
political environment that they need to recruit and operate 
more freely.
    Thank you.
    [The prepared statement of Dr. Nasr follows:]

                 Prepared Statement of Dr. Vali R. Nasr

    Recent attacks on Shia places of worship in Quetta and Karachi, a 
bold assassination attempt against the Corp Commander of Karachi, and 
growing unrest among Pashtoons following military operations in South 
Waziristan all suggest that some three years after September 11, 2001 
extremist Islamist forces in Pakistan are resurgent, and are gaining in 
sophistication and strength, all of which poses a threat to political 
stability in Pakistan.
    This brief addresses three issues. First, what are the root causes 
of religious extremism in Pakistan. Second, what has been done to date 
to contain extremism, and has it been successful? What is the extent of 
extremist threat to Pakistan and its surrounding region? Third, what 
additional steps can be taken to deal with extremism?

                        ROOT CAUSES OF EXTREMISM
    Religious extremism in Pakistan has its roots in the Afghan war. 
The campaign against the Soviet occupation, and the subsequent battle 
for dominance in Afghanistan both radicalized various Islamist groups 
and produced an infrastructure for jihadi activism that supported the 
network of militants that extended from religious seminaries and 
recruiting nodes in Pakistan to training camps in Afghanistan. This 
network produced and supported the Taliban, jihadi fighters in Kashmir 
[Hizb ul-Ansar/Hizb ul-Mujahedin (HUA/HUM), Jaish Muhammad (JM) or 
Lashkar Tayiba (LeT)], and Sunni sectarian groups in Pakistan [Sipah 
Sahaba Pakistan (SSP) or Lashkar Jhangvi (LJ)].\1\ These groups drew 
their followers from the same madrassahs (seminaries) in Pakistan's 
NWFP, Baluchistan and Punjab provinces (mostly from Deobandi 
seminaries), shared in the same hard-line interpretation of Islamism 
that was focused on jihad, advocated a narrow interpretation of Islamic 
law and vehement opposition to Shi'ism that represented a new form of 
Islamic activism, and in many regards was influenced and inspired by 
Saudi Arabia's Wahhabism.
---------------------------------------------------------------------------
    \1\ There has also existed Shia extremist groups in Pakistan such 
as Sipah Muhammad (SM), but they were not tied to the same 
infrastructure of support, and have not been at the center of the 
extremist threat to Pakistan in recent years.
---------------------------------------------------------------------------
    The extremist network from inception had ties with the Arab 
fighters in Afghanistan that later coalesced around al-Qaeda and the 
Taliban, and enjoyed financial support of Saudi Arabia. More important 
it also enjoyed support of Pakistan's Inter-Services Intelligence 
(ISI), which since the mid-1980s saw extremism as a strategic tool for 
controlling Afghanistan (giving Pakistan strategic depth), keeping 
India under pressure in Kashmir (as was evident in the Kargil 
operation), and helping the military manipulate domestic politics in 
Pakistan.
    The extremist network was also viewed as a strategic asset by Saudi 
Arabia in its attempt to contain Iran's influence in the region. The 
Saudi-Pakistani management of the extremist forces was designed to 
promote militant Sunni identity across the region that would be anti-
Shia and hence, anti-Iranian, and thereby create a militantly Sunni 
wall around Iran that would extend from the Persian Gulf into Central 
Asia. To this end much was invested in madrassahs that would train a 
new breed of firebrand preachers as well as a generation of activists 
and militant fighters that would serve as the leaders and foot soldiers 
of the Taliban, jihadi fighters in Kashmir and anti-Shia sectarian 
forces in Pakistan. Although madrassahs belonging to all schools of 
Islam in Pakistan were involved in this enterprise, madrassahs 
associated with the Deoband tradition which is particularly influential 
among Pashtoons (and is also a force in Punjab) were most prominent in 
the rise of the new extremism. Deobandis who support a large network of 
madrassahs developed close financial, organizational and ideological 
ties with Saudi Arabia to propagate a militant and pro-Wahhabi view of 
Islam in the Afghanistan-Pakistan corridor, and to enable Riyadh to 
project power in the region.
    The extremist network became particularly prominent during the 
1994-2001 period when the Taliban's ascendance in Afghanistan also 
convinced Pakistan of the greater fighting efficiency of jihadi forces, 
and hence their utility as a strategic weapon. By 1994 it was clear 
that the various Mujahedin factions were unable to work together and to 
control Afghanistan. The fall of Kabul to the Tajik Mujahedin commander 
Ahmad Shah Masud and his Northern Alliance troops too seriously 
challenged Pakistan's position in Afghanistan, and raised the ire of 
Pakistan's Pashtoons who account for about 15% of the military's 
officer corps. It was in this context that in 1994 Pakistan abandoned 
its erstwhile Mujahedin clients such as Gulbidin Hikmatyar and turned 
to the Taliban. During the 1994-96 time period Pakistan military was 
instrumental in creating the regional structure of support for the 
Taliban, and in organizing militant Sunni madrassah students into 
Taliban and other extremist groups for Pakistan-backed operations in 
Afghanistan and Kashmir.
    The Taliban's control of large parts of Afghanistan in the late-
1990s also provided the extremist forces of all hues with the ability 
to more freely operate, train, and implements their objectives. These 
groups included Arab fighters, but more important, graduates of Afghan 
and Pakistani madrassahs who shared ideological and institutional ties 
and in many regards represented different manifestations of the same 
phenomenon. These groups worked closely together. For instance, 
following the Taliban's capture of the Shia towns of Mazar-i Sharif and 
Bamiyan in Afghanistan in 1997-98 thousands of Shias were massacred by 
Taliban, Arab fighters and Pakistani SSP and LJ fighters. Many of these 
groups also shared fighters--allowing groups to expand and contract in 
response to the needs of various theaters of conflict. It is often said 
that when in Kashmir or Afghanistan extremists are jihadi fighters, and 
when they come back to Pakistan they become anti-Shia sectarian 
militants. Sectarian extremist groups such as SSP and LJ have routinely 
provided fighters for Taliban campaigns and operations in Kashmir.
    By September 11, 2001 state support for extremism had produced a 
sustained momentum for jihadi activism that supported surging extremism 
in the region. The growing number of religious seminaries had created a 
large pool of extremists who supplied various jihadi groups with foot 
soldiers and also helped carry their views into mosques, schools, and 
various other social institutions.
    The events of September 11, 2001 led to an international 
intervention in Afghanistan that dismantled the Taliban regime and 
downgraded the institutional bases of jihadi activism, but it did not 
reverse the rising tide of jihadi activism, nor provide the basis for 
absorbing the jihadi manpower that was the product of the rise in 
religious activism during the previous decade.
    Deobandis had since the 1980s developed close ties with Saudi 
Arabia, and were promoting a more militant view of Sunnism in Pakistan 
in keeping with Wahhabi teachings. This trend would become more evident 
as Deobandi madrassahs became central to the military's project in the 
1990s. Over a decade these madrassahs trained upwards of one hundred 
thousand students. Although not all graduates have joined extremist 
groups, they have helped provide the support structure for militancy, 
and propagated jihadi ideals across a broad cross section of society. 
In the late-1990s with the help of the military the Deobandi model was 
also replicated in other traditions, producing new groups such as LeT 
that hail from Ahl-i Hadith madrassahs--which are also close to Saudi 
Arabia. The madrassahs meanwhile were responding to financial 
incentives provided by Saudi and ISI funding in escalating militancy in 
their education systems and encouraging jihadi activity among their 
students. The military-madrassah combine accounts for the success to 
date of LeT, as well as Deobandi jihadi outfits such as JM or SSP.
    The events of September 11, 2001 complicated the ties between the 
military, the madrassahs and the jihadis; forcing jihadis out of public 
arena, and disturbing the financial linkages that supported their 
operations. For instance, the collection boxes that dotted bazaars and 
were a staple of many shops are now gone. Similarly overt funding from 
outside through charities or financial networks centered in Persian 
Gulf states have dried up. Still, since September 11 there has been 
more money available in Pakistan. The flow of funds back to Pakistan 
after September 11 has provided many more domestic sources of funding 
that avoid international financial networks.

             THE MILITARY AND EXTREMISM AFTER SEPTEMBER 11
    September 11 changed the strategic scene in the Pakistan-
Afghanistan corridor. Most important, it forced the Pakistan military 
to abandon its overt patronage of the jihadi network, and to accept the 
demise of the Taliban. The military also agreed to cooperate with the 
United States in the war on terror. However, Pakistan military's 
cooperation did not reflect new strategic thinking on Islamabad's part. 
The military's policy, at least until December 2003 when General 
Musharraf became the target of two al-Qaeda assassination attempts, was 
to only contain and ``moth-ball'' extremists--especially those active 
in Kashmir--rather than eradicate them. The military distinguished al-
Qaeda and the Taliban from extremist forces that are active in Kashmir 
and sectarian groups inside Pakistan. The military cooperated with the 
United States in suppressing the former, while protecting the latter. 
In fact, Pakistan continues to distinguish between terrorists (al-Qaeda 
operatives) and freedom fighters (those involved in the jihad in 
Kashmir). Pakistan also distinguishes between extremists tied to al-
Qaeda such as JM or LJ and extremists that the military believes are 
free of al-Qaeda ties, such as SSP or LeT. Hence, the military is not 
concerned with all expressions of extremism, but only with particular 
extremist groups. Given the deep linkages between various strands of 
extremism in the Afghanistan-Pakistan corridor, this policy has allowed 
various activists to shift from one organization to another.
    The military has also showed greater lenience in allowing prominent 
leaders of extremist groups such as Azam Tariq of SSP, Fazlur Rahman 
Khalil of HUM or Hafiz Idris of LeT (both of whom were only briefly 
under house arrest in 2001-02) to operate in the open. Khalil gave a 
Friday prayer sermon in the government owned Red Mosque of Islamabad in 
September 2003. In October 2003 LeT held a large public rally in 
Muridke in Punjab, which was attended by an estimated 100,000 
supporters and retired military leaders. The rally openly defended the 
organization's right to wage jihad in Kashmir. Key recruiters and 
educators associated with various madrassahs were never the target of 
government clamp-downs. For instance, Mawlana Shamzai (who was the 
rector of a leading extremist madrassah in Karachi, and who was an 
ardent supporter of JM and the Taliban, and had been instrumental in 
their recruitment efforts in Pakistani madrassahs throughout the 1990s) 
continued his pro-jihadi activity up until his assassination last 
month. Similarly, after September 11 extremist organizations such as 
SSP, JM or LeT which became the target of international condemnation, 
were allowed voluntary disband, and then to apply for new charters and 
operate under new names.
    There was also little done to reduce the power and influence of 
madrassahs which continue to produce extremists. Although sources of 
funding for madrassahs and jihadi groups were disrupted, little was 
done to either reduce the scope of madrassah influence or to reform 
their curricula. Since September 11 the number of madrassahs has 
remained unchanged, and whereas their funding has become constrained 
none has faced closure as a result financial troubles.
    The reason for the military's position was that while the military 
had felt compelled to cooperate with the United States in the war on 
terror, it did not view the American campaign in Pakistan's strategic 
interest. Operation Enduring Freedom had eliminated Pakistan's 
influence in Afghanistan, opened Afghanistan to Indian influence, and 
brought to power a government in Kabul that Pakistanis view as hostile 
to their interests. In the absence of any security guarantees from the 
United States Pakistan has viewed the post-September 11 balance of 
power in the region as inimical to its national interest.
    Pakistan's military leaders remain ill-at-ease with the 
implications of changes in the regional balance of power after 
September 11, 2001. They are also concerned with Pakistan's position in 
the region once the war on terror comes to an end and the United States 
turns its attention away from the region. Pakistan views itself as more 
vulnerable to Indian pressure with the loss of Afghanistan. 
Consequently, Pakistan is by and large a revisionist player in the 
region--a power that has lost ground in the recent changes and has 
little vested interest in the new order. This revisionist posture has 
led to continued interest in extremist forces, which remain Pakistan's 
only viable instruments for influencing Afghan politics. Pakistan has 
viewed its participation in the war on terror as merely a defensive 
measure meant to protect its position and assets during a time of 
regional tumult, and also to gain from a tactical relationship with the 
United States, as it also had in during the Afghan Jihad in the 1980s.
    Although in 2001 General Musharraf made a personal commitment to 
reign in extremism in Pakistan, his position is not reflected in the 
military's position as a whole. The Pakistan military continues to view 
extremist forces as an asset in maximizing Pakistan's regional 
interests. Extremism at its core is a military project that has taken a 
wrong turn. It is closely tied to the military, institutionally as well 
as strategically. This fact has been reinforced by challenges that 
President Musharraf has faced as a result of the military's continued 
presence in the center of politics. Although initially the Musharraf 
regime promised to uproot extremism, it is evident that the military 
continues to be part of the problem rather than the solution. The 
reasons for this ambiguity in the military's attitude are as follows:
    First, the military in Pakistan continues to view extremist groups 
as an effective weapon in managing regional interests--protecting 
Pakistan's position in Afghanistan and keeping India engaged in 
Kashmir. The reasons why Pakistan used jihadis in the 1990s to achieve 
its domestic and regional goals have not changed. Pakistan was able at 
the time to perpetuate its regional interests by adroitly using 
extremism with minimal investment in resources. That Pakistan's 
strategic outlook on the Afghanistan and Kashmir issues has not changed 
suggests that the military is likely to continue to use extremism to 
achieve its strategic objectives. Islamabad has little interest in the 
current set-up in Afghanistan--viewing the new regime in Kabul as 
hostile to Pakistan's interest. Pakistan would like to limit Kabul's 
influence in Southwestern Afghanistan and to prevent India from gaining 
a foothold there. For Pakistan the ideal outcome would be a sphere of 
influence in Southwestern Afghanistan akin to the Iranian zone of 
influence in Herat. To achieve these goals Pakistan is likely to 
continue to rely on extremists to alter the status quo and promote 
Pakistan's position.
    The key issue is how will Pakistan manage to balance its strategy 
of preserving its jihadi assets (and even deploying them) while 
supporting the war on terror, and how will it manage jihadis without 
that policy effecting Pakistan's own society and politics, and General 
Musharrafs goals of economic development and social modernization. 
Moreover, the military has continued to believe that it can best 
control groups such as SSP and LeT by maintaining a patron-client 
relationship with them--to allow them to operate under the military's 
supervision. Even when that control has weakened as is the case in the 
military's relations with JM and LJ, the military has sought to use 
extremism to fight extremism--which has helped the military in dealing 
with particular groups but with the consequence of expanding the scope 
of extremist activism. For instance, the recent escalation in sectarian 
violence in Karachi is associated with the regrouping of the militant 
Shia Sipah-i Muhammad (SM), which has been a client of ISI, and which 
is being used in Karachi to put pressure on JM and LJ over whom the 
military has lost control.
    Second, many in the military, especially among junior officers and 
soldiers are sympathetic to Islamic extremism and hold anti-American 
attitudes. The war in Iraq has only accentuated this trend. The 
presence of these attitudes in the military has made it more difficult 
for the senior commanders to more effectively suppress extremism 
without risking a breach within the military. It was for this reason 
that the military has proved reluctant to aggressively pursue 
extremists in South Waziristan, and was quick to publicly seek a truce 
with the tribal forces there after the failure of its operations in 
Wana. The problem is all the more sensitive as it has now become 
evident that extremist groups have infiltrated the military, and have 
been able to use intelligence provided from within the military to 
organize assassination attempts against General Musharraf.
    Third, since he rose to power in 1999 General Musharraf has been 
primarily concerned with legitimating military rule over Pakistan and 
extricating the influence of secular civilian parties (Nawaz Sharifs 
Pakistan Muslim League (PML) and Benazir Bhutto's PPP) from national 
politics, and was by comparison relatively indifferent to containing 
Islamism. In fact, the general continues to view civilian parties--and 
not Islamists--as the principle threat to the military's position in 
politics, and his determination to continue to rule Pakistan.
    It was for this reason that in the elections of 2002 the military's 
suppression of PML and PPP candidates and change of electoral rules to 
favor Islamic parties produced a strong showing for Islamic parties in 
the MMA coalition. Still, the election results vindicated the General's 
fears as the rump of Nawaz Sharif's PML and Benazir Bhutto's PPP put 
together garnered most number of votes. Since 2002 the military has had 
closer relations with MMA in the parliament than it has had with those 
civilian parties, leading many to facetiously characterize the MMA as 
the ``Musharraf-Mullah Alliance.'' For instance, between 2002 and 2003 
when he was assassinated, Azam Tariq the leader of SSP--one of 
Pakistan's most murderous extremist groups that is responsible for the 
bombing and assassination of many Shias and participated in the Taliban 
massacre of Shias in Mazar-i Sharif in 1997--was General Musharraf's 
closest Islamic ally.
    The reliance on Islamic parties to bolster the military's position 
and off-set the pressure from secular civilian parties for the return 
of democracy led the General to back away from contending with 
extremism including adopting policies for reform of madrassah 
curricula, greater control of funding for extremist causes, and 
constricting the ability of extremists to recruit, train and operate. 
The military's policies remained limited to dealing with only specific 
acts of violence and explicitly al-Qaeda activists, and leaving other 
expressions of extremism free to function as before. General 
Musharraf's failure to contend with extremism over the course of past 
three years is therefore reflective of the political imperatives that 
face a military that is determined to control the civilian political 
process.
    The time and space that the military provided extremist groups over 
the past three years has proved crucial in allowing them to reorganize 
their financing, to develop recruitment and training outside of the 
military's control, and to function with greater autonomy from the 
military. Whereas until 2001 the military had strong control of 
extremist outfits today some groups have deliberately severed ties with 
the military (fearing that it will eventually bow to outside pressure 
and shut them down completely) and have found means to grow and 
function independently. This has created a problem in that the 
military's dithering in dealing with extremism has served to augment 
its threat to Pakistan and the region, and contending with the problem 
today is far more challenging than it was in 2001.
    The problem of extremism is also compounded by changes in Pashtoon 
politics since 2001. Between 1994 and 2001 the Taliban had largely 
served as an expression of Pashtoon nationalism. This trend began with 
the Afghan jihad and was later closely associated with Jami'at Ulama 
Islam (JUI)--the Deobandi political party that has a strong following 
in both Afghanistan and Pakistan's Pashtoon areas, and whose madrassahs 
were important to the rise of the Taliban. Although the Taliban was an 
Islamist force, its rank-and-file were all Pashtoons, and its center of 
power in Kandahar lay in the Pashtoon heartland. Finally, the Taliban's 
drive to capture Kabul was fuelled by the belief that Afghanistan must 
be ruled by Pashtoons.
    The fall of the Taliban has been viewed as the disenfranchisement 
of Pashtoons before the ascendance of Tajiks, Hazaras and Uzbeks under 
the banner of the Northern Alliance. That both the United States and 
Pakistan are viewed as complicit in this development has turned 
Pashtoon nationalism anti-American and also critical of Pakistan 
military's leadership. For instance, in the 2002 elections in Pakistan 
the Islamic parties did very well in the Pashtoon areas of West and 
Northwest Pakistan (and also Karachi, which is today Pakistan's second 
largest Pashtoon city). In many regards the Islamism of MMA and 
activism of extremist forces in Pakistan are expressions of Pashtoon 
frustration. MMA has been entrenching its support by manipulating 
Pashtoon anger, and fanning the flames of opposition to United States' 
policy in Afghanistan. MMA has helped create alliances between the rump 
of Taliban and other extremist Pashtoon forces such as that of Gulbidin 
Hikmatyar, who has been behind attacks on the Karzai regime in Kabul.
    This is a source of concern in that it is suggestive of 
``Talibanization'' of Pashtoon politics in Pakistan. Talibanization in 
Afghanistan meant extremist and jihadi activism. It also meant 
Islamization of Pashtoon nationalism. It is this meaning of 
Talibanization--Islamization of Pashtoon nationalism--that is what is 
at work in Pakistan. The rise of MMA suggests that Deobandis have 
completed their domination of Pashtoon politics and nationalism in 
Pakistan in the manner that the Taliban had done in Afghanistan. The 
Deobandi ascendancy in NWFP and Baluchistan and Afghanistan has in 
effect created an Islamist-Pashtoon belt that stretches from Kandahar 
in Afghanistan to Quetta and Peshawar in Pakistan. The tenor of 
politics in this belt is extremist and anti-American. It is bitter 
about the disenfranchisement of the Pashtoons in Afghanistan, is 
hostile to the Karzai regime, and is increasingly at odds with the 
leadership of Pakistan military. The extent of this disagreement has 
become evident during the recent operations in South Waziristan. The 
Pashtoon belt will continue to supply extremist recruits, and as 
tensions with the Pakistan military escalate (and possibly anger mounts 
after the Afghan elections over consolidation of power under Karzai), 
Pashtoon nationalism can become a destabilizing force in both 
Afghanistan and Pakistan. It can also impact the cohesion of the 
Pakistan military which has a significant Pashtoon component.
    Another important issue is that extremism in the Afghanistan-
Pakistan corridor is becoming more overtly anti-American. Whereas in 
the 1990s extremists were primarily concerned with regional issues and 
saw the United States as a distant and secondary concern, today the 
reverse is true. Extremists view the United States as their main enemy 
and the principal obstacle to the realization of their aims. The United 
States dismantled the Taliban and is the main source of support for the 
Musharraf regime which some extremists view with opprobrium as an 
``American puppet.'' Developments in Iraq, most notably the empowerment 
of Shias--who Pakistani extremists view as infidels and who have been 
the focus of much violence in Pakistan--has reinforced the belief that 
it is the United States that is the impediment to the realization of 
their aims, and the adversary that is most likely to threaten their 
existence.
    Extremist activism is today on the rise in the Afghanistan-Pakistan 
corridor. It draws on an entrenched infrastructure of support in the 
region, and continues to recruit from among the large number of 
students that have come out of madrassahs over the past decade (and 
continue to do so). It is poised to take advantage of instability in 
the larger region--possible failure of the Karzai regime in Kabul and 
growing anti-Americanism as a result of the war in Iraq. In addition, 
extremism in the Afghanistan-Pakistan corridor is based on ideas that 
have resonance elsewhere, and as such can create ties with other 
extremist forces. Revisionist nationalism against the new political 
order, anti-Americanism, and anti-Shi'ism are all staples of extremism 
in Pakistan, which have an echo in the burgeoning extremism of the 
Middle East. Al-Qaeda and Pakistani extremists have shared ideas and 
training, and may well connect to extend their reach. Already there is 
suggestions that JM fighters may have found their way to Iraq. Abu 
Musab al-Zarqawi's attacks on Shia targets in Najaf and Karbala have an 
eerie resemblance to attacks on Shia places of worship in Pakistan. The 
Ashura bombings in Najaf, Baghdad, and Quetta on March 2, 2004 are 
indicative of these linkages.

                         WHAT MORE CAN BE DONE?
    Extremism in Pakistan must be dealt with by both short run and long 
run strategies--contending with immediate security issues while looking 
to address underlying causes of and sources of support for extremism.
    In the short run more needs to be done to constrict extremism. This 
would mean a blanket policy of opposing all expressions of extremism. 
The government in Pakistan must also do more to disarm extremist groups 
and limit the space for their recruitment, training and organization. 
The government must also take reform of madrassahs more seriously, and 
more effectively limit jihadi propaganda and ability to disseminate 
their ideas through newspapers and other publications. The success of 
these measures greatly depends on changes in the broader political 
climate of Pakistan.
    A key issue to consider is that the military in Pakistan has only 
been partially successful in accomplishing its stated goal of 
containing--if not eradicating--extremism. One can excuse this 
shortcoming in terms of inertia within the military, and limits to 
general Musharrafs ability to change the culture and strategic thinking 
in the military. It is, however, important to note that the fact that 
the military insists on ruling over Pakistan reduces its ability to 
contend with extremism, and in fact necessitates that it undertake 
compromises that benefit extremism. Far from the proverbial ``bulwark'' 
against extremism the nature of politics that is fostered by the 
military's domination of politics has encouraged extremism. Whereas for 
the United States extremism remains the primary concern for the 
Pakistan military it is legitimating military rule that matters most. 
For instance, in order to secure the agreement of the MMA Islamic 
alliance (which is a major voice in the parliament and also controls 
the governments of NWFP and Baluchistan) to General Musharraf to 
remaining both president and head of the army in contravention to the 
constitution, the military relaxed its pressure on religious activism, 
and backed away from the reform of extremist madrassahs (which are 
closely linked with constituent parties of MMA, and most notably the 
Deobandi JUI), and also shied away from pursuing al-Qaeda activists in 
South Waziristan earlier. The military will be far more effective in 
dealing with extremism if it were not distracted by imperatives of 
politics, and was not duly concerned with political consequences of its 
security decisions. Conversely, civilian parties when not hindered by 
the military have done a better job of eroding the Islamic forces' base 
of support.
    To the extent that the culture of the Pakistan military is tolerant 
of Islamic activism, General Musharraf must continue to reform the 
military and clean it of supporters of extremism. Two factors will help 
him in this regard. First, a military command that is not encumbered by 
constraints of ruling the country will have a freer hand to address 
security and cultural issues within its own ranks, and to enforce 
professionalism to a degree that is currently not possible. Second, 
Pakistan military continues to view United States' security 
considerations with suspicion, believing that in the absence of greater 
guarantees regarding Pakistan's long run security interests it is 
dangerous to more forcefully confront Islamic forces and to remove the 
threat of extremism to Kabul and Delhi. Eradicating extremism would be 
tantamount to dismantling a weapons system without countervailing 
concessions from India or Afghanistan. The United States must address 
Pakistan's strategic concerns as a part of the war on terror.
    Much of the economic assistance to Pakistan since 2001 has not 
found its way to the lower and lower middle classes. In fact, even the 
salaried middle class is losing ground as a consequence of economic 
reforms. The impact of economic restructuring--as witnessed in Latin 
America and Eastern Europe in the 1980s and the 1990s--has not only 
made it difficult to wean away the youth from extremism and to absorb 
the products of madrassahs into the economy, but has created a 
convergence between socioeconomic disgruntlement and extremist 
tendencies. More must be done to make sure that aid directly impacts 
those social classes most at risk of embracing extremism.
    Pakistan military must be encouraged to put forth a serious plan 
for return of power to civilian politicians. Opposition to 
``authoritarianism'' is on the rise in Pakistan. It will constrict the 
military's ability to contend with the security challenges before it, 
and it can provide extremists with the kind of environment that they 
need to recruit and operate more freely. The problem is likely to grow 
after a technocrat hand-picked by General Musharraf takes over the job 
of prime minister later this year, and the general backs away from the 
agreement he made with the parliament to relinquish his leadership of 
the military in December 2004. A confirmation of military rule at that 
time can lead to serious political instability in Pakistan with direct 
consequences for the security operations there. The main beneficiaries 
of such a development will be the extremists. The war on terror should 
not be a license for authoritarianism, for no more important reason 
than that it is likely to make the fight against extremism less 
effective.

    The Chairman. Thank you very much, Dr. Nasr.
    We would like to hear now from Dr. Marvin Weinbaum. Dr. 
Weinbaum.

  STATEMENT OF DR. MARVIN G. WEINBAUM, SCHOLAR-IN-RESIDENCE, 
                     MIDDLE EAST INSTITUTE

    Dr. Weinbaum. Thank you, Mr. Chairman and Senator Chafee.
    Pakistan's performance in countering terrorism and its 
progress in promoting social, economic, and political reforms 
cannot be understood without understanding General Musharraf 
and the corporate interests of the military. The Pakistani 
President regularly displays his well-meaning, principled 
intentions. Yet, Pakistan's policies regarding terrorism and 
reform, I submit, are noticeably incomplete, inconsistent, and 
not infrequently disingenuous.
    Behind my remarks this morning is the proposition that a 
military-guided regime bears responsibility for many of 
Pakistan's problems but it is also indispensable to finding 
their solutions. The same military that fails to provide a more 
democratic, stable, and secure country is also uniquely 
positioned to advance those goals.
    And I would further premise that Musharraf and the military 
have more to gain from a viable democracy than they have from 
authoritarianism. And I say that because if Pakistan continues 
to fall behind other countries in the region, because it is 
trapped in violence, it is economically uncompetitive, 
politically fragile, with a society that is largely uneducated 
and unskilled, the military will also fail.
    Pakistan, as it is presently, cannot serve as a 
sustainable, reliable partner for the United States unless its 
leaders come to accept reasonable risks associated with 
harnessing popular forces. It needs to build the consensus and 
coalitions that can further a more just society and progressive 
Islamic state, and this will require democratic institutions 
that honor civilian rule and constitutionalism. While we cannot 
dictate to Pakistan what kind of political system it should 
have, we do have leverage and that leverage, I am afraid, has 
sometimes, indeed perhaps often, been used in a 
counterproductive way.
    To understand the half measures and seemingly contradictory 
aspects of Pakistan's foreign and domestic policies, it is 
necessary that we see Musharraf as a leader who functions, 
above all, as a marginal satisfier. Musharraf seems 
particularly adept at calculating what is required in order to 
manage competing demands and to keep everyone minimally 
satisfied. He has shown a keen sense of limits, knowing just 
how far to pursue policies. He has managed to placate the 
military with perks, to please us, occasionally apprehending 
militants. He has shown great talent in maneuvering the 
religious political establishment, and understanding how to 
appease his own political loyalist jihadi groups, business 
groups, ethnic groups, intellectuals, democrats, and so on.
    Musharraf has taken decisive actions on the international 
front: a break with the Taliban, restraint on Kashmir. We see 
here many of the same tactical approaches. His actions are too 
often compromised by an unwillingness to sever older ties 
completely and to alienate sympathizers.
    This calculus that I am referring to I think is at work 
along the Afghan border region. Until recently, Pakistan's 
efforts against the Taliban and other anti-Kabul elements have 
been unconvincing. Security forces have failed to effectively 
monitor and control movement of those who launch raids into 
Afghanistan and deny them sanctuary in Pakistan. Military 
action by Pakistani troops along the border have been brief and 
largely unproductive. All of this is to accommodate the various 
constituencies, the jihadis, the tribals, popular opinion in 
Pakistan, and, of course, the United States and Afghanistan.
    Pakistan's military operations, however, in the last few 
weeks have broadened and intensified. In their sweeps, the 
Pakistani army units are increasingly engaged in bribing, 
threatening, and punishing local tribal populations, and 
fighting the foreigners, as they are called, that they are 
harboring. Why has this taken place? Well, I think we know. 
This is because we here in Washington have been pressuring 
Pakistan to give greater urgency to finding high-value targets 
and through coordinated intelligence and joint military 
operations along the frontier, we are making some progress, at 
least in the south Waziristan area.
    There is another element here too, and that is that the 
Pakistani military itself has a new determination. And that 
grows out of the fact that in some of their initial, more 
showcase operations, they did not do well. Indeed, the regular 
Pakistani military was, to some extent, humiliated, and what we 
are seeing here now, together with also the attempted 
assassination of the corps commander in Karachi, is that the 
Pakistan military has decided that they are going to have to 
get serious.
    Yet, I would say that Musharraf is likely to return to his 
satisfier mode. We have only to compare this with last December 
when there were two attempts on Musharraf's life, and it was, 
indeed, thought at that time by most analysts that we were 
looking at him declaring war on jihadis. Instead, what we found 
after a short time was the familiar truce between their leaders 
and security forces.
    We see the same customary weighing of demands in the area 
of the wide range of reforms that Musharraf has promised to 
introduce in Pakistan. We often refer to the blasphemy law, the 
hudood ordinances, and what is being spent on the social 
programs in Pakistan as against what goes to the military. The 
promised pursuit of corruption in business and politics, like 
most of the other programs, have petered out.
    Musharraf's boldest domestic initiative involved the 
devolution of power to local councils and officials, but I am 
afraid this has also been temporized under pressure from 
provincial and national government officials.
    The context for this is that Musharraf continues to fear 
Pakistan's mainstream parties and their leaders. The military, 
indeed, has a disdain for the country's traditional political 
classes and in the process has discredited or sought to 
discredit these more secular parties. In doing so, it has 
promoted political opportunists and de facto alliance with some 
of Pakistan's mostly obscurantist Islamic parties. Musharraf 
has chosen to placate and to seek alliances with those elements 
that in fact preclude his delivering on most of his pledges to 
pursue a reform agenda and progressive laws.
    Now, what about U.S. policy? I think we have had a short-
sighted policy, and that has already been suggested here. We 
have tied the future too closely to a single individual. A 
bilateral relationship so personality-dependent is unavoidably 
fragile, its survival subject to outcomes over which the United 
States may exercise little or no control.
    The lavish praise which we continue to heap on Musharraf, 
designed to strengthen his resolve on combating terrorism, has 
in effect given Musharraf a pass on satisfying Washington on 
issues of democracy, nuclear proliferation, domestic extremism, 
and social investment. Ironically, we may not have helped 
Musharraf domestically nor helped insure that he stays on the 
course to combat terrorism.
    Now, for conclusions and my recommendations. The United 
States must alter the impression that our support for Pakistan 
is essentially support for Musharraf. Instead, we must 
emphasize by our statements and our actions that it is not 
about keeping one man in power or keeping a military ascendant 
to serve our interests, but we are aiming here at strengthening 
the country's institutions and the well-being of its people, as 
well as serving our interests. We should be prepared to engage 
with the country's political parties, to invest in its 
institutions, to refocus our aid into Pakistan education, 
health, and employment-generating projects, and find other ways 
to create a more solid foundation for a sustained relationship 
with Pakistan.
    It follows that the United States must refrain from the 
kind of unqualified public praise that we have accorded 
Musharraf for his cooperation on anti-terrorism. We require a 
more nuanced approach that blends strong incentives with 
conveying a better appreciation that there are red lines and 
that Pakistan recognized them.
    We must recognize that our terrorism agenda with Pakistan 
cannot be detached from the broader need for domestic reform. 
If Pakistan fails to make progress in resolving its civilian 
military strains, if it compromises with forces of intolerance 
and radicalism and ignores basic popular grievances, we could 
find ourselves without a partner to pursue our objectives.
    Last, the United States must better appreciate the stakes 
in Pakistan. If we get it wrong, Pakistan could very well 
become our major national security interest or concern. Above 
all, we must convince the Pakistanis that our concerns in the 
region are multifaceted and long-term and that we will not 
desert them once we have achieved our leading objectives.
    Thank you.
    [The prepared statement of Dr. Weinbaum follows:]

              Prepared Statement of Dr. Marvin G. Weinbaum

     musharraf as catalyst: balancing counterterrorism and reforms
    Pakistan's performance in countering terrorism and its progress in 
promoting political, social, and economic reforms cannot be understood 
without probing the mind-set of Pervaiz Musharraf and the corporate 
interests of his military. Pakistan's president regularly displays his 
well-meaning, principled intentions, and has ordered actions consistent 
with his stated commitments. Yet Pakistan's policies regarding 
terrorism and reform are noticeably incomplete, inconsistent and, not 
infrequently, disingenuous.
    Behind my remarks today is the proposition that a military-guided 
regime bears major responsibility for many of Pakistan's problems but 
is also indispensable to finding their solutions. The same military 
that fails to provide for a more democratic, stable, and secure country 
is also uniquely positioned to advance those goals.
    Pakistan, as it is presently, cannot serve as a reliable partner 
for the United States unless its leaders accept reasonable risks 
associated with harnessing popular forces. To build the necessary 
consensus and coalitions that can further a more just society and 
progressive Islamic state also requires democratic institutions that 
honor civilian rule and constitutionalism. While the United States 
cannot tell Pakistan how to fashion its political system, it does have 
leverage that has been used to date in an often counter-productive way.
Musharraf and Our Expectations
    The United States has invested heavily in President Musharraf as 
valued partner in preventing Pakistan and its region from becoming a 
safe haven for terrorists and descending toward armed conflict, 
potentially between two nuclear-armed powers. We have also seen in him 
a leader who possesses the personal values that we believe can bring 
together a Western-oriented foreign policy with a Pakistani state 
dedicated to what he calls ``enlightened moderation.''
    Specifically, we look to Pakistan for enhanced cooperation in 
flushing out Al-Qaeda and Taliban terrorists and their support network 
along the Afghan frontier. Our government expects Musharraf to honor 
his pledge that Pakistan will not materially aid the armed insurgency 
in India's Kashmir. We furthermore are anxious for him to reverse a 
trend toward Islamic extremism by reforming madrassahs and cracking 
down on radical Islamic groups inside Pakistan. To match the country's 
observable progress in growing and disciplining the national economy, 
the United States encourages Pakistan to also address its formidable 
economic deficits, notably worsening poverty and unemployment, and its 
broken educational and health systems.
    The United States has been prepared to take Musharraf and his 
military at their word that they are committed to installing genuine 
democracy. This would entail not only holding elections and appointing 
civilian officials, but instituting the kind of open politics that 
allows for full competition and expression. While Pakistan's military 
would no doubt retain influence and perhaps a constitutional role, it 
would divest itself of much of its formal and informal hold on power. 
Ideally, the military would transform itself from rulers to guarantors 
of the political system. Indeed, it can be argued that Musharraf and 
the military have ultimately more to gain from viable democracy than 
from authoritarianism.
Musharraf As Marginal Satisfier
    To understand the half-measures and often seemingly contradictory 
aspects of Pakistan's foreign and domestic policies, it is necessary 
that we see Musharraf as a leader who functions, above all, as a 
marginal satisfier. Musharraf seems particularly adept at calculating 
what is required in order to manage competing demands and keep everyone 
minimally satisfied. He has shown a keen sense of limits, usually 
knowing how far to pursue policies. Musharraf has managed to placate 
his military with perks and please Washington with occasionally 
apprehending militants. He has been adept over time at maneuvering with 
the religious political establishment, and in understanding how to 
appease political loyalists, jihadi groups, the business class, ethnic 
and tribal groups, intellectuals, and democrats, among others. Though 
Musharraf has taken decisive actions on the international front, 
including Pakistan's break with the Taliban and restraint on Kashmir, 
here too his actions seem compromised by an unwillingness to sever 
completely older ties or alienate sympathizers.
    Not surprisingly, this tactical approach has become increasingly 
difficult, and Musharraf's popularity and reputation at home have 
suffered as his various constituencies become less willing over time to 
defer their expected payoffs. For the country's more progressive 
elements, there is disappointment that he has not used his considerable 
authority to create a new framework for domestic politics. Instead, 
despite his declared intentions about bringing enlightened moderation, 
most of Musharrafs attention politically has gone into sidelining and 
undercutting his real or imagined enemies in the political mainstream. 
And in his effort to retain power, his security forces have employed 
the same manipulative political tactics normally associated with the 
discredited politicians of the 1990s. However, for all of the 
accumulated disappointments with Musharraf, virtually none of his 
domestic and foreign constituencies--aside from those sectarian 
terrorists who have targeted Musharraf for assassination--can imagine 
him leaving the political scene anytime soon.
Counter-Terrorism and the Afghan Border Region
    At least until recently, Pakistan's efforts against the Taliban and 
other anti-Kabul elements have been unconvincing. Notwithstanding the 
difficulties encountered in the rugged, porous border areas, Pakistan's 
security forces have failed to effectively monitor and control the 
movement of those who continue to launch raids into Afghanistan from 
sanctuaries in Pakistan. Military actions by Pakistani troops along the 
border have been brief and largely unproductive in apprehending higher 
level Taliban and Al-Qaeda leaders. Elements of both groups have 
reportedly established training camps and terrorist cells in and around 
Quetta and Peshawar. Extremist groups in Pakistan have been allowed to 
finance and facilitate these activities. Though Pakistan's religious 
parties and tribal leaders raised objections to the army's border 
operations, few took the raids by Pakistani troops as much more than 
necessary theater.
    Pakistani military operations have, however, broadened and 
intensified over recent weeks. In their sweeps, the Pakistani army 
units have increasingly engaged in bribing, threatening, and punishing 
the local tribal population. Washington is pressuring Pakistan to give 
greater urgency to finding Osama bin Laden through coordinated 
intelligence and joint U.S.-Pakistani military operations along the 
frontier. In the course of those operations, mostly focused on South 
Waziristan, the Pakistani army has encountered far more resistance than 
in the past and taken surprisingly heavy casualties. Negotiations to 
enlist tribal militias to turn in ``foreign'' fighters have brought no 
results. Frustrated and humiliated--and smarting from the near 
assassination by jihadis of the Karachi corps commander--the military 
has mounted forays into the area with a new determination.
    And yet Musharraf, to mollify mounting criticism, could soon return 
to his more accustomed satisfier mode. The seeming new leaf in clearing 
the border regions may instead mirror Musharrafs supposed resolve to 
attack extremism following two attempts on his life during December 
2003. In a matter of weeks his declared war on some of the more 
notorious groups turned into a familiar truce between their leaders and 
security forces.
    Islamabad's recent military actions are serving not only to please 
Washington but also to quiet complaints from Kabul charging Pakistan 
with negligent border policies. For some time, the United States has 
been concerned that Islamabad might be contributing to destabilizing 
the Kabul government. Islamabad insists on its common objectives with 
the Karzai government in fighting terrorism and has offered development 
assistance. A politically stable Afghanistan, able to secure the flow 
of commerce, is in fact preferable to any current alternatives. 
However, Pakistani agents continue to befriend power brokers within 
Afghanistan's Pashtun tribal belt. A pro-Pashtun policy serves 
Islamabad as insurance against the possibility that should the Afghan 
experiment fail, Pakistan can complete with other regional powers in 
their likely bids for spheres of influence inside Afghanistan.
Compromising on Reform
    Musharraf's cautionary weighing of demands on a wide range of 
reforms is easily documented. Some issues such as land reform have 
never made the reform agenda. Musharraf quickly backed off an initial 
attempt to modify the country's misused blasphemy law. Moreover, 
religious-inspired ordinances that fundamentally compromise women's 
rights remain untouched. While a self-confident finance minister has 
addressed a number of economic reforms, including more effective 
revenue collections, the promised pursuit of corruption in business and 
politics by a specially appointed bureau has largely petered out. In 
any case, the political selectively of the process has been all too 
evident. Musharraf's boldest domestic policy initiative, involving the 
devolution of power to local councils and officials, has also been 
temporized under pressure from provincial and national office holders.
    Though some extremist groups have been declared illegal, the most 
influential of them continue to flourish, and their fund raising and 
recruitment are hardly affected. Most of their leaders move freely and 
are active politically. Widely touted policies to gain control over the 
country's madrassahs have produced very few results. Registration of 
religious schools has been stubbornly resisted, as have attempts to 
revise curricula. Elaborate plans for reform of state schools are 
starved for a lack of funds. Like other social programs, education 
cannot compete with the military's claims on the country's treasury.
    Any successful political figure must balance interests and make 
prudent judgments about what issues to push and which to defer. But 
Musharrafs continuing fears of Pakistan's mainstream parties and their 
leaders, and the military's disdain for the country's traditional 
political class have resulted in the promotion of political 
opportunists and a de facto alliance with Pakistan's mostly 
obscurantist Islamic parties. Musharraf has chosen to placate and seek 
alliances with elements that in fact preclude his delivering on most of 
his pledges to pursue a reform agenda and enact progressive laws.
U.S. Policy
    Since September 11, 2001, Washington has taken the view that 
virtually any change from the present leadership in Pakistan is likely 
to set back the prime objectives of the United States in the war on 
terror. In turn, Musharraf has staked much of his political future on 
his close ties with the United States and the benefits it can bring to 
Pakistan. With American interests hanging so critically on Musharrafs 
remaining in power, Washington, however, may have shortsightedly tied 
the future too closely to a single individual. A bilateral relationship 
so personality-dependent is unavoidably fragile, its survival subject 
to outcomes over which the United States may exercise little or no 
control.
    Cooperation on counter-terrorism operations and, in particular, 
targeting high-value leadership, has long trumped all other American 
demands on Musharraf. The lavish praise heaped on Musharraf by 
Washington, designed to strengthen his resolve on combating terrorism, 
has, in effect, given Musharraf a pass on satisfying Washington on the 
issues of democracy, nuclear proliferation, domestic extremism, and 
social investment. Ironically, though, we may not have helped to insure 
that he stays the course on combating terrorism.
    Repeated expressions of support for Musharraf from the highest 
echelons of the U.S. government strengthen his claim that he is 
personally indispensable for attracting American and Western resources 
to Pakistan. Even many elements in Pakistani society that object 
vigorously to American foreign policies are unwilling to alienate the 
United States. At the same time, Musharraf, carrying our unqualified 
endorsement, is regularly charged with being a puppet of Washington by 
deferring to American interests in the region. The religious 
establishment questions his commitment to Islamic causes, and most 
democrats in the country accuse the United States of indiscriminate 
support for Pakistan's military at the expense of meaningful political 
reforms. Because Musharraf may believe that he can take American 
backing for granted on all but the issue of terrorism, we may have also 
inadvertently emboldened him to act--arranging a sham 2002 presidential 
referendum, arbitrarily invoking constitutional amendments, and 
unashamedly pre-cooking a parliamentary election--in ways that have, in 
fact, weakened him politically.
Conclusions and Recommendations
    The United States must alter impression that our support for 
Pakistan is essentially support for Musharraf. Instead, we must 
emphasize by our statements and actions that our policies are not about 
keeping one man in power to serve our interests but are aimed at 
strengthening the country's institutions and the well being of its 
people. We should be prepared to engage with all of the country's 
political parties and work with civil society. We must refocus our aid 
to Pakistan on education, health, and employment generating projects, 
and find other ways to help create a more solid foundation for a 
sustained relationship with Pakistan.
    It follows that the United States must refrain from the kind of 
unqualified public praise that we have accorded Musharraf for his 
cooperation in anti-terrorism. We require a more nuanced approach that 
blends strong incentives with conveying a better appreciation in 
Islamabad that the red lines in our relationship are not effectively 
erased by our concerns about terrorism.
    We must recognize that our terrorism agenda with Pakistan cannot be 
detached from the broader needs for reform. If Pakistan fails to make 
progress in resolving its civilian-military strains, compromises with 
forces of intolerance and radicalism, and ignores basic popular 
grievances, we could find ourselves without a partner for any of our 
objectives.
    The United States must better appreciate the stakes in Pakistan. If 
we get it wrong, Pakistan could dwarf Afghanistan, Iran, and even Iraq 
in threatening our national interests. Above all, we must convince 
Pakistanis that our concerns in the region are multifaceted and long 
term, and that we will not desert them once we have achieved our 
leading objectives.

    The Chairman. Well, thank you very much, sir.
    Let me just say that one of the benefits of this committee 
is the educational experience we receive which occurs when 
there are three remarkable papers such as we have heard this 
morning. I certainly have that feeling, and I am certain those 
who have witnessed this hearing have, too. We will take 
advantage of your presence to probe the recommendations you 
have made as well as those that we might hear in our 
discussion.
    Let me start with the thought that many of you have 
stressed. We have been, perhaps, preoccupied with our own 
national security interests, which are our fight against 
terrorism, including very specifically in the war in 
Afghanistan against al-Qaeda, against Osama bin Laden and his 
lieutenants. The general supposition about Osama bin Laden is 
that he is now resident somewhere in Pakistan, probably near 
the border of Afghanistan, as are many other al-Qaeda leaders, 
perhaps protected by Taliban or whoever may be there.
    So one of the basic questions, before getting into the very 
important concerns about institution building and the political 
parties, and the future relationship, is specifically, why has 
Pakistan been ineffective in finding Osama bin Laden? Why has 
it been ineffective in routing out the rest of the al-Qaeda 
operatives who happen to be there? We understand that there are 
questions of sovereignty. The Pakistani military has taken a 
very dim view of United States forces simply coming into the 
area and cleaning up. So as a result, we have indicated that we 
will support the Pakistani military, and we understand that 
President Musharraf shares that goal.
    But many Americans would simply raise the question to begin 
with, why have we together been ineffective? The ramifications 
of Osama bin Laden and/or others planning out there, wherever 
they are, for destruction and attacks on the United States, or 
what have you, are rampant in our political discussion here 
now, a very topical subject. This very building, for that 
matter, for all we know, may be targeted. We hear homeland 
defense people discussing the possibility of attacks during the 
upcoming fall political season, or even this summer.
    Do any of you have any thoughts as to what we ought to be 
doing about Osama bin Laden with regard to our relationship 
with Pakistan, with Musharraf? Or is this one of these 
situations that are virtually hopeless, in which you simply try 
to do the best you can to encourage Pakistanis to do their duty 
as we see it, to have Musharraf step up to the plate? Do any of 
you have thoughts about this specific security conundrum?
    Yes, Ambassador Schaffer.
    Ambassador Schaffer. In the short term, I am not sure we 
have a lot of terribly different options from what we are doing 
now with respect to trying to find Osama and put the rest of 
al-Qaeda out of business.
    Why has it not worked so far? A combination of it being 
difficult to get operational intelligence on these matters, the 
weakness of some of Pakistan's operational instruments in the 
police and military--and this gets back to the institutional 
question very quickly--and some level of ambivalence, as Dr. 
Nasr alluded to, that really putting extremism out of business 
is tantamount to abandoning a major weapons system. The people 
that we were looking for in the past have been assets of the 
Pakistani intelligence services. I do not think there is an 
intelligence service in the world that likes to give up an 
asset. If Osama bin Laden came within range of the Pakistani 
forces, I dare say that they would nab him, but when it comes 
to dismantling all of al-Qaeda and particularly the Taliban, 
that involves both more people and people with direct personal 
relationships. So you may have some level of ambivalence in 
Pakistan in dealing with it. As I said, I think in the short 
term we are pretty much at the mercy of what the Pakistanis can 
deliver, plus whatever our intelligence is able to sustain.
    In the long term, I think that the institutional rebuilding 
task I talked about is absolutely central to making this kind 
of task more feasible.
    The Chairman. Dr. Nasr, do you have a thought?
    Dr. Nasr. Yes, Mr. Chairman. I think the problem of 
Pakistan dealing with bin Laden has changed somewhat since 
2001. I agree with Ambassador Schaffer that initially it was a 
matter of foot-dragging and trying to protect assets and also 
inertia within a military that supported jihadis. Now the issue 
is somewhat different in that primarily extremist forces in the 
past 3 years have been able to establish an infrastructure 
which is now partially independent of the control of the 
military, and their ability to carry out assassination attempts 
and directly targeting the military is indicative. So it is not 
as easy for the military now to essentially shut down these 
operations.
    Second, Pakistan is in a very difficult year. President 
Musharraf is coming upon his promise of taking his uniform off. 
He has sacked the Prime Minister. He is trying to bring in a 
technocratic government. Going after the extremist groups and 
particularly bin Laden would require a great deal of political 
capital to be put on the table. As Dr. Weinbaum mentioned, it 
is a matter of will. The political costs from this point 
forward for Pakistan are much higher.
    And I would say at least as far as the United States is 
concerned, in the past 2 years we have relied a great deal more 
on the carrot in hoping that the Pakistanis would step up to 
the plate. That might need to be reassessed.
    The Chairman. Dr. Weinbaum.
    Dr. Weinbaum. I think in specific response to your 
question, Osama bin Laden is not in south Waziristan, as the 
operation is almost entirely directed there. There is 
infiltration from that area. But if we are talking about those 
high-value targets around Osama bin Laden, if I had to place 
them somewhere, I would place them much further north along the 
border, a far easier place in which to hide and to cross back 
and forth between Afghanistan and Pakistan. So I do not think 
that is what it is about there.
    I do believe, though, that there is a sense in Pakistan 
that if they ever did take care of the jihadi problem, 
particularly the al-Qaeda problem, that somehow we would lose 
interest in the region. So the idea of doing something and also 
not solving the problem has a lot of appeal. Now, maybe that is 
just a bit cynical, but there is a strong feeling, 
nevertheless, that this keeps us interested.
    Further, I would mention, of course, that I also believe 
that most of the al-Qaeda leadership is not in the tribal area. 
They have long left that area. What we will find and what is 
being discovered here are foot soldiers. They are not 
unimportant for the stability of Afghanistan. But aside from 
Osama bin Laden and his immediate entourage, we are probably 
not going to find the people that you are speaking of in that 
region.
    The Chairman. Well, what if we proposed, just 
hypothetically, that we understand that the Pakistani military 
is stretched, that perhaps as you say, bin Laden is not in 
Waziristan, but somewhere else? Could we take a more aggressive 
posture and say, well, we are more impatient, we need to get on 
with this? Our own security, as well as yours, depends upon 
this. What is likely to be the Pakistani reaction to a 
concerted military operation by the United States to find bin 
Laden and other high-value targets, as you point out, of the 
al-Qaeda leadership?
    Dr. Weinbaum. There is a cost to Musharraf if he allows us 
to play a larger role than we are playing right now. First of 
all, Osama bin Laden is not viewed by many Pakistanis as their 
enemy, and so Musharraf has to take that into account as he 
balances off, as he satisfies. He is going to have to be very 
careful, as I think has already been indicated, that anything 
which suggests that Pakistan's territorial sovereignty is being 
compromised could be a very serious issue for him. So I suspect 
that it is not going to happen. He does have the forces there. 
He started off with some 70,000 troops. We are providing the 
majority of the financing to keep those troops busy. So I think 
that what we are doing is a great deal and that eventually we 
may get lucky.
    The Chairman. All right. Well, I will return for another 
round of questioning in my turn. I would really like each of 
you, in one way or another, to talk about our ties with 
Musharraf, including any problems he has internally and 
balancing that relationship with problems we have.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. Welcome to the 
witnesses.
    Dr. Nasr, you talked quite a bit about the Afghanistan-
Pakistan border, the corridor between Kandahar and Peshawar and 
the extremism there. Is that different from the rest of 
Pakistan? I assume that most of the people do not live in that 
corridor, the 140 million people, whatever, in Pakistan. Most 
of the people do not live in that corridor. But does it spread 
out of that corridor, some of that same extremism you talked 
about? Or is there a difference?
    Dr. Nasr. Well, there is extremism also in Punjab and also 
in Karachi. But one has to note also Karachi is now Pakistan's 
second largest Pashtoon city after Peshawar. The reason that 
the problem is focused on that corridor is essentially because 
of the growing Pashtoon nationalism and Pashtoon political 
frustration after the fall of the Taliban. And if one looked at 
the elections of 2002, Islamist parties did extremely well in 
that border area, in the Pashtoon area. Essentially the problem 
of the government is dealing with the Pashtoon unhappiness.
    Ambassador Schaffer. Could I add something to that, 
Senator?
    Senator Chafee. Absolutely.
    Ambassador Schaffer. I think you have got to look at both 
extremism and ethnic politics, and you have got to look at the 
things that drive extremism within Pakistan that are not 
directly part of the Afghan problem but feed into it. One of 
the most difficult problems Pakistan has faced in recent years 
has been sectarian violence. That has been actually 
predominantly in the city of Karachi and in parts of Punjab. 
You have a combination of sectarian hostility, organizations 
that feed on the extremist sentiments of one particular sect. 
Now, some of these are predominantly Shia organizations and 
some are predominantly Sunni. Shia doctors have been a 
particular target of violence.
    But one other dimension to it is simply bad governance. Why 
is it that the cities of Pakistan have been hit by such 
sectarian violence? Well, it is not just that cities in 
Pakistan, as elsewhere, have a rich cocktail of ethnic and 
sectarian differences in their population. It is also that the 
police force is corrupt and does not work, and that they have 
slums where it is relatively easy to hide out, and if the 
police are looking for you, it probably does not cost very much 
to bribe the cop on the beat.
    So that is why I have argued that the problems of extremism 
and institution-building and policy toward India and 
Afghanistan all get tangled up together when you try to deal 
with them in practice.
    Dr. Weinbaum. May I just add one brief thought? Since you 
mentioned both sides of the border, we are talking about the 
essentially Pashtoon areas, which include the tribal area of 
Pakistan but also settled areas of Pakistan also along with 
Afghanistan. There is an important distinction, though, to make 
here. Afghan Pashtoons are not ideologically extremists. 
Pakistanis are. The kind of Islamic radicalism that we saw 
enter into Afghanistan by virtue of the Taliban was based on 
the schooling that took place in Pakistan. The Afghan Pashtoons 
are conservative. They are consumed with their religion, but 
they are not politically extremists. That is a learned behavior 
in Pakistan, and I think it is important that we recognize that 
particularly for our policy toward Afghanistan.
    Senator Chafee. So the answer to my question about the 
extremism kind of in that mountainous corridor that Dr. Nasr 
talked about, does that spill over eastward into the valley? Is 
there a difference in the extremism?
    Dr. Nasr. It does, Senator, and actually many of the 
extremist groups, also as Ambassador Schaffer mentioned, are 
located in Punjab and in Karachi. But in the past 3 or 4 years, 
it is resurgent in that corridor for the reasons of Pashtoon 
awakening. There are also other factors, including that is the 
drug corridor as well and there are linkages between extremists 
and drug lords going all the way into Iran and Afghanistan. It 
is an area that is also now under the control of an Islamic MMA 
government which gives it a certain degree of liberty in terms 
of providing a space for extremist behavior.
    Senator Chafee. Forgive my ignorance, but is the MMA 
popular east at all in the country, into the valley, or is it 
mostly out of the mountains?
    Dr. Nasr. Well, it did not do very well in the 2002 
elections. Some of the political parties have roots in Lahore 
and in Karachi, but it did not virtually win anything outside 
of NWFP. And all but one of the leaders of the parties are all 
Pashtoons. Actually I think now all of them are Pashtoons. So 
they also really play to the bleachers when it comes to the 
issue of Pashtoon nationalism as well.
    Senator Chafee. Could I ask you to expound a little bit on 
the anti-Shi'ism? What are the dynamics of that?
    Dr. Nasr. Well, this goes back to essentially the 1980s 
where anti-Shi'ism grew as a reaction to the resurgence that 
was produced by the Iranian revolution. It is my belief that 
Saudi Arabia and Pakistan helped invest in extremist Sunniism 
as a way of containing Iran's influence. The consequence was 
that anti-Shi'ism was sort of built into the ideology of 
extremist groups that now is also spreading out through al-
Qaeda also into Iraq and the like. And the conflict has been 
surging every once in a while. Both sides now have extremist 
groups. They engage in assassinations and in bombing of 
religious holy places. Although since the mid-1990s onwards, 
Shia extremism has been essentially more docile and on the 
street has largely lost the war in terms of numbers and 
activity to the far larger network of Sunni militants which 
were tied to the Taliban and received far more funding from the 
Persian Gulf and far more support from the security services in 
Pakistan.
    But I must add also that there is a cynical view that the 
resurgence of violence in Karachi has to do with the military's 
struggle with extremists, in particular the Shia extremist 
groups, the Sipah Muhammad, which was always known to be the 
client of the military, is going back into Karachi in the past 
few months, and a cycle of assassinations and bombings has been 
escalating. So there is a sort of an argument about a 
subterranean war going on as well.
    Ambassador Schaffer. It is worth remembering that there are 
a couple of areas with higher than average concentrations of 
Shia population, and one important one is in southern Punjab 
where you have a number of fairly substantial land-owning 
families that are Shia, whereas the rest of the population may 
not be. And there is also a significant Shia population in 
Lahore. As with other divided populations, this tends to stoke 
hostility where you have other roots for it. So this is one of 
the things that gives the sectarian problem roots in Pakistan 
proper that have been aggravated by trouble spilling over from 
Afghanistan.
    Senator Chafee. It seems to me there are so many fingers to 
the anti-Americanism and the civil strife also and the anti-
Shi'ism.
    But I will change my question, if President Musharraf does 
not abide by his pledge by the end of 2004, what would you 
guess would happen then. Any predictions?
    Dr. Weinbaum. I think right now President Musharraf is 
keeping his options open. By everything he has said and done, 
it is very clear that he wants to hold onto his army office. He 
believes that that is an important lever in terms of wielding 
power and he views himself as being indispensable for Pakistan. 
Naturally he gains strength with that office.
    However, he has made some promises to us, to the Europeans, 
and to the Pakistani ruling classes that he is going to step 
down. The military would like him to step down. It sort of 
frees up the promotion ladder. So he is under pressure to meet 
the obligations which he himself has agreed to, although 
reluctantly. However, I believe that if there is the least 
reason that he can cite as to why it is necessary to hold onto 
his uniform for the good of the country, he will take that 
route.
    I think if he does give it up, it is in the belief that at 
least for a time, through his appointments among the corps 
commanders--that is the senior military leadership--that he has 
placed enough loyalists in position so that at least for the 
first year, he is secure. However, he knows how he came to 
power. He knows how General Zia came to power and he knows that 
is not worth anything for very long.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Nelson.
    Senator Nelson. Shortly after September 11, 2001, President 
Musharraf was confronted with the mullahs and the madrassahs 
and was going to try to crack down on some of the madrassahs. 
Can you give us a progress report? Bring us up to date.
    Dr. Nasr. I do not believe much has been done for a variety 
of reasons. First of all, whereas the growth of madrassahs may 
have slowed down, particularly because of the shutting down of 
the outside funding through the charities and the like, none 
has been completely shut down. None have really lost students. 
In fact, the government has gradually backed away from its 
pressure as well, as part of its compromises that it is making 
with the Islamic opposition for reasons of military rule 
wanting to stay in power.
    In addition, the efforts to reform curricula have 
essentially ground to a halt. It was largely left to madrassahs 
to voluntarily engage in reform, and some of them tried to do 
so, but they found that there are no resources. For instance, 
there are no mathematics teachers to hire. Even though the 
government gave financial incentives for madrassahs to hire 
mathematics and physics teachers, there are none to be hired. 
As a result, not much has been done, and they continue, in the 
vacuum of absence of public education, to be the education 
choice for much of the rural areas and some urban areas as 
well.
    Senator Nelson. At the same time, our ambassador was trying 
to get some of our financial assistance specifically out into 
the rural areas for just what you said, straight to the 
classroom to hire teachers and mathematics teachers and so 
forth. Can you critique whether or not that U.S. effort has 
been forthcoming, and if so, has it been in any way successful?
    Dr. Nasr. At least in terms of interviews I did with one of 
the Islamic parties, which was forthcoming, the Jama'at Islami, 
which is a member of the MMA, they have taken advantage of some 
of the financial incentives that have been provided by the 
government. The problem is that this is not a problem that 
could be solved in 3 years. For instance, as I said, they first 
of all could not find a sufficient number of mathematics 
teachers to fill up 3,000 madrassahs that they have. Second, 
for some of the classes that they were asked to reform, they 
essentially are presenting the same old material under new 
course titles. So physics or natural sciences are still the 
same old courses. Even at the best of times, they just admit 
that it is not something that can be done because of the 
manpower constraint that Pakistan has.
    Ambassador Schaffer. Senator, I think there is another 
interesting perspective on this. The madrassah reform program 
was supposed to start with registration. Registration has not 
got very far partly because the religious parties saw it as the 
camel's nose under the tent, but partly because of the well-
known administrative weaknesses of the Education Ministry in 
Pakistan.
    I had a long talk a few months ago with the director of an 
NGO coordinating agency, a woman who was trying to mobilize 
corporate support for adopting particular public schools. She 
had found that in some areas the funding from the Ministry of 
Education, presumably with external donor support, was helping 
madrassahs buy computers, which was leading parents in the area 
to say, hey, we have got a school with a computer. Let us put 
the rest of our kids into the madrassah.
    This is one of the reasons that I think we must not lose 
sight of the potential for taking these shells of public 
schools and trying to make sure that they have teachers and 
proper supervision and can provide some competition. This 
particular NGO/corporate effort, the Pakistan Center for 
Philanthropy, was most impressive partly because of whom it has 
mobilized in this effort. I am a big believer in getting a lot 
of different people involved in the education sector because no 
one, not the Education Ministry and not any other organization, 
is big enough and sufficiently able to operate at scale to take 
on the whole task.
    Dr. Weinbaum. They were also up against something else 
about Pakistan. Pakistan traditionally trained the elite. After 
all, this is a country which has 35 percent literacy. In 
training the elite, the emphasis historically has been on 
higher education and ignoring primary schools. So it even 
involved changing the mind set of Pakistan, the need to invest. 
As has been suggested here, it is an enormous undertaking. It 
will take years to be able to create the pool of people who 
could conceivably provide an education which would give them, 
the madrassah students, the option to do something other than 
opening their own madrassah or perhaps joining a jihadi group.
    So there is a problem here which is very deep. As has been 
suggested, it cannot be solved in the short term, and yet I 
think everyone agrees this is where the investment has to go 
and it has got to start now if we are ever going to see any 
progress in the future.
    Senator Nelson. And is it starting with the United States 
assistance?
    Dr. Weinbaum. It is about $20 million that we are now 
programmed to provide. That is a pittance for what is needed 
here. We have talked about in this large package of $100 
million, but that is spread out. So I think that if we are 
serious about this, we are going to have to put a lot more in 
the way of resources behind it, but even that will not be 
enough because, again as has been suggested here, we have got 
to get them to change their attitude and we need the ministry 
to be capable of following through.
    There are other solutions too. We should perhaps be 
encouraging the right kind of private schools. Right now most 
middle class people will send their child to an English medium 
private school and this is filling the gap for them. So it may 
very well be that indeed we have to support the state schools, 
but we may in the near term have to depend on better private 
schools to step in and perhaps to be subsidized so that they 
can take the students who cannot afford the normal tuition.
    Dr. Nasr. If I may add, Senator, that this is not just an 
educational problem. The madrassahs in Pakistan are the 
political base of Islamic parties and they will not give that 
up easily. In fact, if President Musharraf is to back away from 
his promises on the political front, it is more likely that he 
will compromise with Islamic parties to get their consent to 
his continuance in office, and that will mean that he is going 
to back away from encroaching onto the power base of the 
Islamic groups, which are the madrassahs. That is where they 
train the population. That is where they are creating the next 
generation of voters, and that is where they are recruiting. 
This is a political battle that the government has to engage 
in. It is not educational.
    Senator Nelson. It is very troubling.
    Let us talk about maybe some ray of hope. It seems that 
things have cooled on the Kashmir border. Do you think India 
and Pakistan are really at a point at which they are serious 
about wanting to reduce tensions? Where do you see it going?
    Ambassador Schaffer. I think they are serious about wanting 
to reduce tensions. When the outgoing government, the Vajpayee 
government, agreed last January to start talks with Pakistan, 
it was very clear to me that that represented a serious 
decision. It is interesting to me that during the Indian 
election campaign just a few months later, relations with 
Pakistan were not an issue. In fact, the Congress Party, which 
eventually wound up winning the election, made it clear that 
they wanted to continue the effort. The Pakistanis have said 
the same thing.
    So far what they have done has been relatively easy. They 
have been agreeable to each other. Officials have met the 
number of times that they were expected to. The two Foreign 
Ministers keep running into each other in third party places 
and on airplanes and smiling and shaking hands for the cameras, 
and they have brought their bilateral relationship up to where 
it was 3 years ago. They have got functioning ambassadors in 
both places. They have got their embassies and consulates built 
back up to the strength they were at least 3 years ago. They 
have restored the rail and air links that were severed.
    Now it is going to start to get interesting. They are going 
to have to get beyond the mood and into making some real 
decisions on what they want to do next. As we all know, that is 
harder. They are going to have to figure out what policies both 
of them are prepared to change.
    This issue of opening up a bus service between the two 
sides of Kashmir is a very interesting case in point. It was an 
idea that was proposed by India, initially greeted rather 
coolly by Pakistan but eventually embraced. It is very popular 
in Kashmir, actually on both sides of Kashmir, which I visited 
last March. The issue is what kind of documentation should be 
used by those who travel on the road. India's position is they 
should have passports and visas. They want this both because it 
provides them greater security against people they do not want 
to let in and because it represents, one can argue, some kind 
of acknowledgement of India's sovereignty in Kashmir. For 
precisely that reason, Pakistan initially said, no, no, they 
have to have U.N. travel documents and has now backed off of 
that to say we want them to travel on some kind of local 
documentation. As a technician, I could draw you three or four 
different solutions to this, all of which would include an 
agreement that this did not prejudge the eventual outcome.
    I believe both sides understand they can solve this 
problem. They will solve it when the President of Pakistan and 
the Prime Minister of India tell their officials ``go solve it 
and do not come back to me until you have done it''--and not a 
moment earlier. That has not happened yet. I hope that it 
eventually will because I think they need some concrete 
progress in order to sustain the overall process.
    Dr. Weinbaum. Senator, in the broader sense, I do not 
believe that there are the ingredients on the table for a 
solution of the Kashmir issue. What is important here, though, 
is that this process continue partly because of the hope that 
over time the chemistry may change. Also I believe that the way 
in which it ultimately is going to be resolved, however that 
is--and it probably will look something like the status quo--to 
see it in the larger context of the bilateral relationship 
between India and Pakistan. When they begin to see the mutual 
advantages in their bilateral relationship, in that context 
perhaps the Kashmir solution lies. But if the problem itself is 
contained as Kashmir, what I worry about is that because they 
will not show that kind of progress any time soon, that there 
will be domestic pressures from both sides to back away from 
that process. So what one can hope for, most of all, is that 
there is enough continuity to create the momentum so that both 
sides will see that it is in their mutual interest to certainly 
not go back to where they were.
    Dr. Nasr. If I may also add. It will not go forward without 
direct U.S. assistance to the process, the reason being that 
after September 11, the balance that existed before has 
changed. India has gained greatly. Pakistan has been a major 
loser, having lost its position in Afghanistan. The fate of 
Afghanistan and its implications for Pakistan are still not 
clear. It will be decided after the elections. President 
Musharraf is likely to be weaker domestically and not able to 
take the bold moves that are required to go the next step after 
December. So without some outside power providing a certain 
degree of confidence and security to Pakistani mind set, it 
will be very difficult for them to take any risky moves.
    The Chairman. Thank you very much, Senator Nelson.
    I would like to recognize Senator Biden now. Senator Biden, 
if you would in the next 10 minutes give your statement or ask 
questions----
    Senator Biden. Well, I am going to withhold the statement. 
I will wait to be the last one to question. Has everyone 
questioned already?
    The Chairman. Yes.
    Senator Biden. I would just go right to questions, if I 
may, if that would be appropriate.
    The Chairman. All right, fine.
    Senator Biden. I would ask unanimous consent that my 
statement be placed in the record.
    The Chairman. It will be placed in the record.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I commend you for calling today's hearing. There are 
few places in the world more vitally important to the national security 
of the United States than Pakistan--and few places where our policy is 
in more desperate need of a serious, long-term strategy.
    Do we have such a strategy in place? If we do, I'm hard-pressed to 
figure out what it is. Some of the administration's policies toward 
Pakistan make sense, but it's difficult to see how the various pieces 
add up to any coherent long-range plan.
    And we can't go on much longer without a plan. The stakes are far 
too high--for Pakistan, for the rest of South Asia, and for the United 
States itself.
    Let's take a minute to review a few of the formidable challenges 
that our policy must address:
    First (certainly from our perspective) is counter-terrorism. 
Pakistan has been an important partner in this effort--but far more 
remains to be done. Nearly three years after September 11, 2001, the 
architects of the worst terrorist assault in history are still believed 
to be hiding on Pakistani soil.
    Osama bin Laden, his terrorist aides, and his Taliban confederates, 
are holed up in the tribal areas near the Afghan border. In recent 
months the Pakistani military has finally launched a campaign against 
al-Qaeda hideouts, but the operations have not yet rooted the 
terrorists from their sanctuary.
    What is the administration's plan for crushing al-Qaeda? Are we any 
closer to achieving this goal now than we were three years ago? 
Secretary Ridge tells us that al-Qaeda is planning a massive terrorist 
strike in the U.S.--so why did the White House wait until just this 
year before pressing Pakistan to launch a campaign in the tribal areas?
    Maybe there truly is a coherent plan for counterterrorism 
cooperation with Pakistan, but I don't see it.
    The second challenge is nuclear proliferation. Earlier this year, 
we learned that the head of Pakistan's nuclear program had sold both 
technology and know-how about the most dangerous weapons in the world 
to countries like Iran and Libya.
    It's difficult to see how this trade could have gone on--for years, 
at facilities under military control--without the tacit consent or 
active participation of top officers in the Pakistani army.
    Dr. Khan, the worst nuclear proliferators in the world, received a 
pardon for his activities from President Musharraf; he has not spent so 
much as a day in jail, and there is no likelihood that he ever will. To 
the best of my knowledge, he has not even been questioned by American 
officials, in order to shut down the nuclear black market he 
established.
    Over the past few years, we've repeatedly been promised that 
Pakistan's nuclear secrets were not for sale. Even after 9/11--when 
everything was supposed to have changed, when we all were supposed to 
woke up to the dangers of weapons of mass destruction potentially being 
sold on the open market--there were signs that the promise wasn't being 
kept.
    When rumors surfaced two years ago of nuclear trade between 
Pakistan and North Korea, both Musharraf and the Bush administration 
promised that if any leakage had occurred, it was absolutely 100% 
contained. Well, we now know that wasn't true. So what's the response 
today: a new promise that this time things will be different.
    And maybe they will be. Maybe A.Q. Khan, and his cronies in the 
Pakistani military and intelligence agencies, truly have seen the 
light. But I wouldn't bet my life--or the lives of my grandchildren--on 
it.
    What's the plan? What's our strategy to make sure that Pakistan's 
nuclear know-how isn't spread further afield?
    The third challenge is Pakistan's relations with its neighbors. To 
the east is India--a relationship that has seen four wars so far (the 
most recent, in 1999, was sparked by reckless adventurism at Kargil, 
and ended only with the intervention of President Bill Clinton). In 
addition, Pakistan has supported a range of militant groups operating 
in Jammu and Kashmir, including some of the most brutal terrorist 
organizations currently in existence.
    Thankfully, the leaders of Pakistan and India have tried to forge a 
peace between their countries. But all too often the current 
administration's policy toward Indo-Pakistani peace appears to be 
little more than crisis management. And the failure to crack down on 
several hard-core terrorist groups based on Pakistani soil threatens 
the long-term prospects of any treaty.
    Relations with Pakistan's neighbor to the west, Afghanistan, are 
hardly more encouraging. Elements of the Pakistani military and 
intelligence agencies still provide support to the resurgent Taliban, 
and to other militants seeking to destroy Afghanistan's fledgling 
democracy. U.S. officials complain about it, but nothing seems to get 
done.
    Does the administration have a strategy for bringing a lasting 
peace to one of the most volatile regions in the world? Is there a plan 
to give Pakistan sufficient reassurance of its legitimate security 
needs that it doesn't have to embark on dangerous adventurism to the 
east and to the west? If so, I'd sure like to know what it is.
    There are a range of other pressing challenges--the increasing 
power of extremist groups in Pakistani politics, the failure of 
Pakistan's secular education system, the urgent need for 
democratization. If I were to touch even briefly on each of these 
topics, I'd leave little time for our witnesses.
    And, Mr. Chairman, we have an excellent panel of witnesses today.
    Ambassador Schaffer has served her country both as a diplomat in 
South Asia, and the director of the Foreign Service Institute.
    Prof. Nasr is widely known as one of this country's foremost 
authorities on Pakistani politics, particularly the role of Islamic 
parties and the rise of radical groups.
    Dr. Weinbaum is also a top scholar of the region, and was until 
recently the head of the Pakistan desk at the State Department's Bureau 
of Intelligence and Research.
    I look forward to hearing their testimony on this vitally important 
topic.

    Senator Biden. I apologize. I was, as we say in the 
business, necessarily absent but I cannot think of anything 
more important, Mr. Chairman, than this hearing and, quite 
frankly, the fate of Pakistan. That is the single greatest 
concern I have, quite frankly, of all that hangs in the balance 
out there in our present attempts to grapple with a foreign 
policy that makes some sense.
    If the questions that I raise have been raised before, 
please just tell me and I will be briefed by my staff and look 
at the record so we do not have to take more of the committee's 
time.
    Doctor, you just indicated that Pakistan has been a loser 
relative to India in the recent past, and you indicated that 
part of that evidence of that loss is its loss of influence in 
Afghanistan. Would you amplify what you mean by that?
    Dr. Nasr. Well, historically Afghanistan had always been an 
irredentist power vis-a-vis Pakistan all the way until the 
Soviet invasion of Afghanistan and it had always traditionally 
been an ally of Delhi. Pakistan had always felt under a pincer 
between Afghanistan and India. For the period of 1980 to 2001, 
Pakistan was able to reverse that situation. It essentially 
controlled Afghanistan and claimed to have gained strategic 
depth. As a consequence of September 11, it essentially in one 
swoop lost its back yard, and the Pakistanis are very nervous 
about the fact.
    Senator Biden. I hope you are right. I do not see any 
evidence that that is true. That is what I thought you meant.
    So you are not asserting that India has regained its 
influence in Afghanistan, are you? I have seen evidence of 
that.
    Dr. Nasr. Well, the Pakistanis would often tell you that 
they view with concern the fact that India has now eight 
consulates, including one in Kandahar, and that Hamid Karzai 
was educated in Delhi and the Northern Alliance were allies of 
India before the war began. In other words, as far as they are 
concerned, they are looking at a glass half empty and they see 
that compared to before 2001, their situation is more 
precarious.
    Senator Biden. Well, before 2001, they were the Taliban. 
Now, the Pashtoon--let me ask you the question rather than me 
state it because I do not want to, by a statement I make, lead 
anyone to believe that I am in any way referencing any 
intelligence data because I am not. But that sometimes happens 
in this business.
    Is there evidence that the ISI and others have ceased and 
desisted from their involvement in the internal affairs of 
Afghanistan and that they have, in fact, become the good 
neighbor? Is there any evidence of that, or is there contrary 
evidence?
    Dr. Nasr. Well, I can only give you my opinion rather than 
hard evidence, and my opinion is that no, they have not. The 
extremists or the Taliban remain the one instrument with which 
Pakistan could possibly remain involved in Afghanistan. Until 
such time as there are alternate ways to influence the future 
of Afghanistan, they are likely to remain engaged.
    I also personally believe that the Pakistanis, based on my 
observations, would not like the consolidation of power in 
Kabul in the manner that it is occurring and would rather see a 
southwestern Afghanistan as a zone of influence, much like 
Iran's zone of influence in Herat, a buffer that can give them 
the kind of strategic depth that they always looked for in 
Afghanistan.
    Dr. Weinbaum. Can I just add on to this?
    Senator Biden. Yes, please.
    Dr. Weinbaum. I do not believe that Pakistan is at the 
moment deliberately trying to undermine the Karzai regime. 
Pakistan, as do the regional neighbors in general, believes 
that a successful, a stable Afghanistan at this point would be 
in its interest. All of them, however, and especially Pakistan, 
are taking out insurance policies. They are not completely 
severing their connections with their former clients. So those 
relationship, remains, and should the Afghan experiment fail, 
these countries are likely to bid for their spheres of 
influence. But I would not want to characterize certainly 
Musharraf's views as ones which are sometimes expressed in 
Afghanistan that he is simply trying to undo the Karzai 
government.
    Senator Biden. I know we are talking about Pakistan, but 
what is your view of the Iranian's attempt--let me back up. On 
the front page of the newspaper a couple days ago, Karzai has 
changed his tune a bit and is now saying what the chairman and 
I have been saying for a while and that is the warlords have 
gained ascendancy, that they are a problem. It is not merely 
the Taliban. How do you assess Karzai's assertions in the 
press, which I am sure you read, I guess it was Monday, saying 
that the postponement of elections relates in part at least to 
the warlords? And as you point out, historically the five 
neighbors have viewed Afghanistan as a place to compete for 
influence, and they have had their own clients. It looks like 
most of the clients are up and running. It looks like most of 
the clients are still in business.
    Dr. Weinbaum. We have reason to be surprised. When 
President Karzai was here in Washington last month, he made a 
point of saying: do not fear the fact that I am talking to the 
warlords. Ambassador Schaffer and I sat together when he made 
that statement; he tried to allay fears, particularly expressed 
within Afghanistan, that somehow he was throwing his lot in 
with the mujahedin leadership and the warlords.
    Then the statement just the day before yesterday. The only 
way one can interpret that is that some of the deals that he 
thought he had made have gone sour.
    Senator Biden. Well, let me help you. I can tell you how to 
interpret that. And I am willing to bet my career on it.
    The administration made a judgment a year ago in a direct 
conversation I had with Dr. Rice that there was an 
inevitability of the warlords maintaining control. When we were 
trying to expand ISAF--we were trying to significantly expand 
it 2 years ago--the assertion was made to me, that is always 
how it has been. There is security. There is stability. Meaning 
the Taliban and al-Qaeda are not in Herat. They are not up in 
the Tajik area. They are not functioning. That was a judgment 
made.
    In my humble opinion, Karzai was left with a reality. The 
reality was he knew he was not going to get what he desperately 
wanted at first, a significant, as you will remember--and it is 
amazing, Ambassador, how we all have such short memories--a 
significant expansion of ISAF. A significant expansion and 
striking while the iron was hot, when all the warlords are 
ready to buy in, and the reason they were ready to buy in was 
because they viewed ISAF as apartheid cops. They were not sure 
they still had their sponsors, and they were willing to take a 
risk that if in fact ISAF was in their area and in control, at 
least their competitors would not be in and in control.
    So he made a Faustian bargain. He thought, given the fact 
that he was not going to get help to do what needed to be done, 
he would have to try to figure out how to control these guys, 
and he figured out he cannot control them. Now he is doing what 
some of us pleaded personally with him to do 10 months, say 
straight up, I need help. I need force. Force. So there is 
nothing surprising about this. I am surprised you are 
surprised.
    Dr. Weinbaum. But, Senator, I think it is wrong to label 
all those who are competing with him for power as one kind of 
warlord. We have a variety of types.
    Senator Biden. I could not agree with you more. But people 
who maintain large militias who have no intention of Kabul 
being the center of power in that country, starting with 
Ishmail Khan in Herat, just to name one, Dostum--we can go down 
the list--doctor, do you think any one of those folks envisions 
himself in Kabul with a united Afghanistan? What do you think?
    Ambassador Schaffer. Only if he is in charge.
    Senator Biden. No. But do you think they think that is 
remotely possible? No. I want to hear the answer.
    Ambassador Schaffer. I do not.
    Senator Biden. Right. I do not either.
    Ambassador Schaffer. But I also believe that every leader 
that Afghanistan has ever had has had a job that involved a mix 
of forced negotiations, guile----
    Senator Biden. Exactly right.
    Ambassador Schaffer [continuing]. And perhaps a little 
luck.
    Senator Biden. And that is exactly what Karzai was looking 
for. Leaders in the past, when they have been able to unite 
that country under one leader, have been in the position where 
there have not been robust militias that were in full flower 
and making it clear their claim was absolute in the region in 
which they operated. There have been deals cut. And so what 
Karzai tried to do, in my humble opinion, is cut those deals 
and found out he had no power really to pull off. What does 
Ishmail Khan need from him? What does Dostum need from him?
    So there was not much to cut here except what they want to 
make sure is that he is not, I would suspect--this is a 
question. I do not know this. My guess is their greatest 
concern is what one of you just said is the concern of the 
Pakistanis, that there is a strong, united government out of 
Kabul controlling the money and making the judgments about 
development in the country. Does anybody disagree with that 
assertion?
    Ambassador Schaffer. Senator, I think there is one asset--
--
    Senator Biden. My time is up, but please go forward.
    Ambassador Schaffer [continuing]. That arguably the 
government in Kabul ought to be able to mobilize, and that is 
foreign assistance.
    Senator Biden. How can they do that?
    Ambassador Schaffer. But their ability to mobilize that 
depends critically on their ability to get it to be relevant to 
its distribution in the different parts of the country.
    Senator Biden. That is exactly right.
    Ambassador Schaffer. That very quickly brings you back to 
two problems, the problem of security outside of Kabul and the 
problem of roads.
    Senator Biden. Exactly right.
    Ambassador Schaffer. Those are the two areas where I think 
a strategic investment ought to have been made as early as the 
beginning of 2002.
    Senator Biden. I could not agree with you more.
    Ambassador Schaffer. It is still important but it is late.
    Senator Biden. It is not only important and late, I do not 
know how it gets done now. We had a significant debate up here 
with the administration. One of the things we argued--I speak 
for myself--that I argued repeatedly and intensely about as 
that we were providing for projects in relatively small amounts 
throughout Afghanistan and not having every one of them go 
through Kabul. That is all you are talking about. This is not 
rocket science, Ambassador, to go into Herat and let Ishmail 
Khan build the road, the sewer system, the school. What other 
power did Kabul theoretically have? They had no army. They had 
no ability to extend force. The only thing Kabul was needed for 
by any other part of Afghanistan was aid, and instead of 
funneling every single dollar through Kabul so it became 
relevant, it was done ad hoc. So what did Karzai have? He did 
not make the decision on the distribution of the dollars or the 
aid. He still doesn't make that distribution.
    Dr. Weinbaum. But, Senator, he does not have the 
administrative capacity to do what you are asking him to do.
    Senator Biden. Sure he does. He has as much administrative 
capacity to do what we are talking about with our aid as we do 
to do it directly with Ishmail Khan. He does not have the 
administrative capacity anymore either.
    Dr. Weinbaum. Ishmail Khan has a very effective 
administrative apparatus. This central government cannot 
effectively control its own governance. So I agree with you 
that we should have focused more of our assistance toward the 
center, but the idea that somehow you can have a central 
government in Afghanistan which is able to take on the 
responsibilities now I think just flies against what history 
has shown us.
    Senator Biden. Well, your approach is guaranteed we are not 
going to have a united Afghanistan.
    Dr. Weinbaum. We will always have a united Afghanistan 
because the Afghans want it united. That is not the problem.
    Senator Biden. Let me be more precise. There will be a 
place called Afghanistan with a border that will have 
territorial integrity on a map. That will be an Afghanistan. 
There will be five Afghanistans like there was before, and 
there will be very little ability for the United States of 
America to have any impact on whether or not it becomes a 
cesspool again for terror. And there will be, as a consequence 
of that, an awesome impact upon Pakistan, and that will be 
hell.
    So when I say administrate from Kabul, I do not mean 
physically build the project. I mean when Ishmail Khan wants to 
build a road, he goes to Karzai to ask if he can. Karzai signs 
off on it and we release the money to Ishmail Khan. That is 
what I mean by administrate. It is not administrative in the 
sense that he had an apparatus to be able to go out there and 
make the independent judgment. It is called patronage. It is 
called political power. It is called having power. And he has 
none. None. None. And it is a policy dilemma that is our 
responsibility and a serious mistake we have made.
    As you can tell I do not feel strongly about this. Thank 
you.
    The Chairman. Thank you very much, Senator Biden. I think 
Senator Biden has indicated, as you have, the relevance of 
Afghanistan to our topic today. It is very important.
    It illustrates the complexity of our new foreign policy 
endeavors. Working so that Afghanistan would be a functioning 
democracy with a constitution, would have elections, quite 
apart from being economically viable, is a daunting task. 
Certainly as our committee has explored it, the resources our 
government is devoting to this probably are inadequate for the 
ambitions that we have, quite apart from the reluctance of our 
NATO allies to come forward, even though the new mission calls 
for more participation. So we are not unique among governments 
of the world, in terms of lack of commitment, including both 
persons and money.
    Coming back to Pakistan, the problem is even more daunting. 
As you mentioned, Ambassador Schaffer, the public school 
dilemma, quite apart from rebuilding other institutions, is a 
long-term project. We understand that here today around the 
table. But we also have, as I tried in my first questions to 
indicate, a short-term problem that is very serious with regard 
to security of our country. And these two situations may have 
brought about a certain amount of conflict. As policymakers 
attempt to gain more efficacy from the relationship with the 
Pakistani military and General Musharraf, perhaps they have 
neglected or even compromised other issues.
    So you could argue that, on the one hand, we will have to 
hope for the best on the terrorism and military front. In any 
event, we ought to be planning long-term for considerable 
expenditures, and hopefully organizing an international view of 
this. We point out that there are only 42 percent of children 
of elementary school ages now attending school at all. The 
alternatives, the madrassah schools, are extremely difficult, 
in terms of the future of Pakistan, and certainly our 
relationship. As you point out, the relationship of the 
political parties and General Musharraf is, to say the least, 
troubled. The evolution politically there does not appear to be 
encouraging, not moving along in a very healthy way.
    For somebody attempting to draw up our foreign policy to 
Pakistan, there are so many moving parts in this situation that 
I suppose that in the past this has led not only 
administrations, plural, but Congress to simply either ignore 
it, or hope for the best, or allow experts to deal with it as 
best they could until a crisis such as 9/11 comes along, and 
then we refocus on Pakistan and what has been going on there.
    You have indicated some places to begin, including the 
public schools and education. We could provide some 
manifestation to the people of the country that we care about 
them at the lower levels, as opposed to the elite. We do so 
regardless of whether, as the Pew Foundation or others who are 
polling Pakistanis indicate, they do not like us. Now, you 
could qualify that and say, well, they do not like American 
Government policy or they do not like the American military, 
but down deep, if any of us were to come in the room, they 
would like us, perhaps.
    But the fact is even as we try to talk to our public, the 
American people, about why they ought to invest money in 
Pakistan, many of my constituents ask, well, why indeed? 
Granted, it is an abysmal public school system. But we have got 
some problems with Leave No Child Behind in our own States 
right now. Full funding is not occurring.
    What are the fundamental reasons why, if we were to do this 
right, either in Afghanistan or Pakistan, we propose to our 
administration that they enhance the appropriations very, very 
substantially, and change the priorities or make a much more 
comprehensive list; get a lot of people involved in diplomacy 
in that area, beyond what we have now, and beef up our own 
efforts? State for me, what is the case to be made, even after 
we explore Pakistan today? Why is it important, and why would 
this depth of commitment be required? Would you start with 
that, Ambassador Schaffer?
    Ambassador Schaffer. Pakistan embodies, in concentrated 
form, the most severe dangers that face U.S. foreign policy in 
the region, and it certainly would be on the short list for 
that honor in the world.
    Terrorism. We all know that Afghanistan was a sanctuary for 
terrorists before 9/11. Part of that sanctuary has moved into 
parts of Pakistan where it may not have government support, but 
it has relatively little difficulty operating below the 
government's radar screen.
    Nuclear war. I do not believe that Pakistan and India have 
any intention of going to war with one another, but it 
certainly is not beyond the realm of possibility that this 
could happen by accident or miscalculation. It came 
uncomfortably close a couple of years ago.
    Nuclear transfers. We all know what happened last year when 
A.Q. Khan was using his Rolodex to transfer nuclear materials 
and know-how to some of the worst customers that one could 
possibly imagine.
    And then, of course, the reconstruction of Afghanistan, 
something that I believe has been indirectly impacted by our 
decision to go into Iraq, but whether or not you accept that 
argument, it is beyond question that this has been a 
complicated enterprise and is in some trouble.
    The way to deal with all of these dangers so far has run 
through Pakistan. Pakistan, as we have discussed this morning, 
is in difficult shape itself.
    I did an exercise in the past couple of years of looking at 
different scenarios for what Pakistan might look like a few 
years from now. There is an uncomfortably large number of very 
unattractive scenarios, ranging from the succession to power of 
a more irredentist military leadership to a kind of an 
alliance, a more explicit alliance between the military and the 
extremists, to a breakdown of governance where governmental 
authority falls apart and the people with the guns, not all of 
whom are in the army, wind up on top.
    One can also imagine good outcomes, but without exception, 
the good outcomes start with a rebuilding of Pakistan's civic 
and political institutions. I would be a fool to tell you that 
that is a sure bet.
    I still think that the other options are unattractive 
enough that it is worth making that the center of gravity of 
our policy. But I do think that somewhere in the recesses of 
the government and outside of it, we need to be thinking about 
what happens if that policy fails because that is not beyond 
the realm of possibility.
    You mentioned earlier in the session the question of 
whether the United States should simply go after the high-value 
al-Qaeda targets itself. Dr. Weinbaum said--and I agree with 
this--that there would be a very high cost to be paid in terms 
of backlash in Pakistan from the undercutting of Pakistani 
sovereignty by the United States against the background of 
decades of Pakistani conviction that the U.S. is a fickle 
friend at best.
    I would argue that for the United States to take on that 
task and to do it in such a way that it was obvious--I am 
having a little trouble figuring out a way that it would not be 
obvious--would, in effect, be making a decision that we may not 
be able to work with Pakistan anymore, so we want to take 
matters into our own hands. That means that you are headed 
toward a really messy outcome in South Asia, one in which you 
have to worry, in ways that we may not have to worry quite as 
intensely now, about the stewardship of Pakistan's nuclear 
weapons, about the future of its relations with India and with 
Afghanistan and a host of related problems. For that reason, I 
hope we are not too eager to make those matters into our own 
hands, not to speak of the fact that the intelligence support 
for this operation has got to be very difficult to achieve. We 
arguably had better access to intelligence information on the 
whereabouts of Saddam Hussein and we had over 100,000 troops on 
the ground, and it took us a while to pull that one off. But I 
cannot sit here and tell you that there is no way we would have 
to do that because one can imagine circumstances in which it is 
possible.
    The hope had been, first when Musharraf came in and then 
when he held elections 2 years ago, that after a period of 10 
years of essentially failed governments, that this would be an 
opportunity to rebuild the economy and the system of 
governance, and that the elections would be the first step down 
what everyone understood would be a long road to rebuilding the 
political institutions.
    The political institutions have not made any progress since 
that time. In fact, I would argue that they have probably moved 
backward because they have not really been taken seriously by 
the holder of real power, namely President Musharraf. I 
appreciate that he has got one of the toughest jobs in the 
world and a very difficult country to govern in difficult times 
and that nothing in his training as a military officer really 
equips him to deal with the world of uncertainty that is the 
essence of democratic politics. But that is where we are today.
    The Chairman. Well, I thank you for that assessment.
    Let me just raise one more question during this time. With 
regard to President Musharraf himself, you have all described 
the problems that he has governing. At the same time, it has 
never been clear, I think, to most of us what the alternative 
may be. As we lean on General Musharraf to do this or that and 
so forth, and perhaps inadvertently knock this equilibrium off 
so that in fact he loses authority for one reason or another, 
or more tragically he is assassinated by someone in Pakistan 
and is gone, at that point, what do we do? What are the courses 
of action?
    Dr. Weinbaum. Senator, under the constitution there is a 
process where he will be succeeded by the chairman of the 
senate and then elections will be held. However, realistically 
speaking, were Musharraf to leave the scene, his replacement 
will be another general or perhaps two or three generals, at 
least in the short term. So we should not anticipate 
structurally that there would be any change in the balance of 
power, civilian/military, with this. Depending on the 
circumstances, we could see, however, the introduction of 
martial law, depending on how he leaves the scene. So we might 
very well see a severe setback to the democratic or elected 
institutions.
    I think the problem here with our policy is that we do not 
have a plan B. We have not seriously thought through in our 
government how we would proceed without General Musharraf. We 
put so much of our faith in him. He has got an investment in 
us; we have got an investment in him. And it is understandable 
because he has been there when we wanted him, although as I 
suggested in my remarks, he has a way of backing off when he 
feels it necessary.
    So I think right now, as we look at this question that you 
raise here about what if, we have got a very uncertain 
situation in Pakistan. The best estimate would be that other 
generals would come up. Now, they, I think initially, would try 
to maintain a certain degree of continuity, but ultimately my 
concern is that they would have to make even greater 
compromises with some of those elements with which Musharraf 
has already thrown in his lot. Therefore, the long-term 
possibilities that we would proceed along this road to greater 
institutionalization would be at least derailed for a short 
time.
    Senator Biden. Can I ask for a clarification on this?
    Dr. Weinbaum. Yes.
    Senator Biden. God forbid Musharraf is assassinated. The 
attempts that have occurred so far are coming from, as I 
understand it, fundamentalist elements of the Pakistani society 
and the radicals who are empathetic, sympathetic, or 
cooperative with the very elements that have now moved into the 
northwest province of Pakistan, including al-Qaeda.
    Do I understand you to be saying that if that was the 
source of the assassination, that element--and I agree with you 
that it most assuredly would be another general or series of 
generals--that that would incline those generals to be more 
cooperative with those elements or to take them on more 
directly? What would be the inclination in your view?
    Dr. Weinbaum. Were he to be removed by a political mistake 
in which then the jihadi groups, the religious establishment, 
and others went into the street to demonstrate, and the 
generals would then come to him and say we think it is time for 
you to take a vacation, which is a conceivable scenario, I 
think under those circumstances I would worry more about their 
compromising with those elements. Initially I suspect that the 
generals will get as tough as they can get with those jihadi 
elements. My concern here is, in doing so, they may have to 
unleash their own security forces in a way, which is simply 
going to set back whatever progress we have seen toward 
democratic governance.
    Senator Biden. Is it a possibility to have progress toward 
democratic governance as long as the northeast province is in 
fact ungovernable and in the hands of what appears to be the 
jihadists?
    Dr. Nasr. If I may answer. Actually these are sort of straw 
men that the general himself puts up in the sense that there is 
no alternative to the current setup. That is not true. I 
believe that in fact ideal for Pakistan would be that if the 
military went back to the barracks and got down to the business 
of dealing with the extremists and left the politics to 
civilian politicians, the military being out of power has no 
bearing on their effectiveness of dealing with extremists. In 
fact, I think they would be far more effective because right 
now General Musharraf is making compromises with Islamists in 
order to get consent to rule.
    Also, regarding the issue you mentioned, namely, if he were 
to be assassinated, one of the key issues for the Pakistan 
military, which is also at play right now in their dealing with 
Islamists is that the Pakistan military does not want to end up 
losing its popular base of support. It is always viewed much 
like the Israeli military is in Israel as the last defense of 
the religious homeland. It is a popular military, and it is 
gradually getting into that sort of gray area where it is 
losing that.
    If General Musharraf was to be toppled or to be 
assassinated, the military will try to restore its social-
political position, which means that it will pursue the actual 
murderers, the actual assassins, but more than likely will very 
quickly try to get back to the high ground that they have 
enjoyed before 2001.
    I believe actually before beginning with the nuts and bolts 
policies of addressing varieties of issues of how do we get 
there, one of the key issues is that we are sort of trusting 
450,000 men and one general to figure it out, and I do not have 
confidence in that. I believe that actually the political 
imperatives that are driving President Musharraf are making 
Pakistan a more dangerous place. We really need to think, as we 
are talking about the Arab world, what kind of a government do 
we believe Pakistan ought to have, and we should not really 
trust it to the generals to decide what is the best way to 
manage the extremism issue.
    The Chairman. Let me just inquire. Let us say we came to a 
government of new generals, or of the current general. Do any 
of these people have an interest in the public school system? 
In our democracy, why, parents would say we want public 
schools. We want money spent for public schools. We want all of 
our children to succeed. Now, what you have described is a 
society in Pakistan which a certain elite might receive 
education and the emphasis on expenditure is only for the 
highest levels. This is a practical solution as only so many 
dollars or local currency are available, and therefore the 
government would spend it on only a few people who might offer 
leadership. But is there an ethos here?
    It is probably beyond our Nation's ability in terms of our 
diplomacy, to bring about a constituency in which the people 
are all heard and in which money is spent for public schools, 
and in which something other than the madrassah is available as 
an alternative. But just how does this get done at any level of 
the Pakistani Government?
    Ambassador Schaffer. First of all, I think there is lots of 
evidence that there is grassroots support for functioning 
schools.
    Second, as far as the army's attitude is concerned, the 
army insists on what is called ``matric'' which is essentially 
10 years of school, plus an exit exam, for recruitment even to 
the enlisted ranks. In a society with literacy levels are as 
low as the ones you have cited, Mr. Chairman, this is an 
extraordinary high standard, and they are able to meet it. The 
military educate all of their kids. They basically have their 
own school system. They allow others to enroll in their school 
system, but the others have to pay slightly higher fees, and if 
there are enough army brats to fill the school, then the others 
are on the waiting list.
    On the face of it, this would appear to create a situation 
where the military could become backers of the public school 
system, but not because of their own immediate needs because 
their own immediate needs are taken care of. So I think they 
could be part, if they wanted to, of the kind of transformed 
mind set that Dr. Weinbaum spoke about. I do not think so far 
they have really seen this as a cause that they had to throw 
themselves into, although you do have a certain number of 
retired military officers who have.
    Dr. Weinbaum. Mr. Chairman, I think it is important that we 
see Pakistan as a kind of company town. The military has seized 
the country as its subsidiary. What the great hope here is that 
because this is a military which owns most of the assets of the 
country, makes most of the important decisions, has claims on 
the budget, that there would be enough enlightenment to say, if 
this country fails, we are going to fail too. This has been the 
hope, and there are some people in the military--as Ambassador 
Schaffer said, we find them typically when we talk to retired 
officers--who recognize that it is more than simply winning a 
battle. It is more than Kashmir. They have got the 
responsibility of Pakistan. I think we have been waiting for a 
long time for them to step up to that.
    However, at the moment the problem is that this is a 
welfare state for the military. The military is a disciplined, 
professional military with very good reason. If they play ball, 
if they stay with the system, there is something for them for 
the rest of their lives. They get taken care of, whether it is 
education at one end for their children or housing and 
allowances at the other end. They have every reason to simply 
stay with the system. Somehow one has to hope that this is 
going to change. Unless we change the military and the 
military's mind set, I am afraid we do not have solutions for 
Pakistan.
    The Chairman. Yes, Ambassador.
    Ambassador Schaffer. One statistic may be of interest to 
you. Spending on education in the last year came to about 1.8 
percent of gross domestic product. In 1995, the civilian 
government, which had a lot of discredits on its dossier, spent 
2.8 percent of GDP on education. This is from Government of 
Pakistan statistics. So they have got a big way even to go to 
get back to where they were.
    The Chairman. Finally, this is my last question. Is it 
possible that if the military government does succeed in 
identifying itself with the rest of the country, and tries to 
build these institutions, among the institutions it may try to 
build are the political parties or some civilian system, so 
that at some point it might cede control, step back, and allow 
others to have a go at it?
    What is the prospect of that occurring in the short term or 
even in the intermediate term, even if we would all agree it 
might be healthy to have development of political parties 
again?
    Dr. Nasr. Well, actually initially President Musharraf 
tried to play that card of creating his own political party, 
but with the sacking of the Prime Minister and his indication 
that he would like a technocrat with no political base, 
independent of President Musharraf--that is, the current 
Finance Minister to become Prime Minister--essentially he is 
moving in the direction of apolitical politics, politics run by 
technocrats with no basis of support. And the danger of that is 
that even the minimum amount of political support he was 
getting from some landlords and parties that he was able to 
lure to support him, he is going to lose that, and his 
political base will become even more narrow.
    Dr. Weinbaum. What is so tragic here is that he had the 
power, coming in in October 1999, to change the political 
framework in the country. Democrats were with him, obviously 
the military, and most recognized the failures of the 1990s and 
that kind of democracy. He could have changed the framework. He 
has chosen instead, especially as we have seen in the last 2 
years, to play by the old rules, so that what he has done is to 
manipulate the political scene just as they did in the 1990s 
except it is being done now through the military and through 
the ISI. And I think that is the great sadness here, that had 
he wanted to reexamine this and to say, OK, the political class 
has let us down, how can we change the rules, how can the 
military operate not as rulers here, but as guaranteers of a 
system which brings us to more genuine democracy. He chose 
however, to play the same old manipulative game. That 
ultimately will discredit him, just as it has previous 
politicians.
    The Chairman. Well, thank you.
    Senator Biden. Can I ask a question?
    The Chairman. Yes, Senator Biden. Why do you not continue 
with your questions?
    Senator Biden. If I may.
    What leverage does this or any administration have with the 
Pakistan military?
    Dr. Nasr. I would say there are two parts to this. One is 
what leverage we have with the military. Second is what 
leverage we have with President Musharraf personally. I think 
there is more leverage with President Musharraf than there is 
with the military partly because to some extent his power base 
in Pakistan is dependent on his relationship with Washington, 
and part of his utility and power among the other generals 
comes from the fact that he has been able to secure a very 
lucrative tactical relationship with Washington, which had not 
existed since the time of General Zia. So there is 
substantially more leverage on him personally than there is on 
other generals. And to some extent, our window of opportunity 
in influencing Pakistan is while he is in power and before he 
faces too many political crises to nudge him in the right 
directions.
    Ambassador Schaffer. There are two major things the 
military wants from the United States. One is military supply, 
including the famous F-16s. The other is diplomatic support 
against India. And I am phrasing it the way they would probably 
phrase it in their heart of hearts, but they realize that that 
is not the way U.S. policy is currently structured. By 
withholding those things, according to the normal way these 
things are calculated, we ought to have leverage with them.
    The problem is this. First of all, some of the supply items 
that the military is most interested in, including in my 
judgment the F-16s, may not be a good idea from the U.S. point 
of view because I think there are limits to the traditional 
argument that by beefing up Pakistan's conventional defenses, 
you raise the nuclear threshold. I think you may do that, but 
in the process you also tend to increase their willingness to 
engage in risky policies like the incursion in Kargil. So I 
think that we should stay away from that kind of military 
supply.
    But more fundamentally the things that we want from the 
Pakistan military and from Pakistan more generally tend to be 
very important in their scheme of things. We want them to close 
down support for the insurgency in Kashmir and keep it closed 
because we see a war risk there. This is, as Dr. Nasr said a 
few minutes ago, like giving up a weapons system, something 
they are very reluctant to do. The military particularly are 
attached to the dream of getting Kashmir, and therefore even 
more reluctant than they normally would be to give up what they 
see as practically the only tool that they can use for that 
purpose.
    That is where the diplomatic support comes in. I do not 
think that what we ought to be doing is anything that could be 
described as diplomatic support against either Pakistan or 
India. But I do think that a serious diplomatic effort aimed at 
shoring up Pakistan's and India's peace process, smoothing out 
some of the inevitable rough spots, and trying to help them 
turn these initial steps into a serious move toward completely 
rebuilding their relationship and, in the process, settling 
Kashmir would be the greatest contribution we could make both 
to U.S. foreign policy goals and to the peace of the region, 
from which Pakistan will benefit almost more than anybody else.
    Dr. Weinbaum. We have got some ground to make up here. We 
had some 12 years in which our relationship with the Pakistani 
military was nil. This was because when we instituted sanctions 
in 1990. One of the things we cutoff was the very intimate 
relationship between our two militaries. This had served us 
very well. One has only to talk to middle-level Pakistani 
military now to recognize that necessarily we are alienated. As 
has been suggested here, they still see us in their corporate 
interests as serving a purpose, and they are not prepared to 
alienate us. And that is one of the reasons why they support 
Musharraf because they see Musharraf as their ticket to the 
United States.
    The degree of good feeling that we once had between our two 
militaries has, I am afraid, severely eroded. That together 
with the greater Islamization of the military and as part of 
the greater Islamization of Pakistani society, has been driving 
us apart. To be very honest, it is something that is going to 
take a while for us to reconstitute.
    Senator Biden. Well, the only way you reconstitute it is to 
be more forthcoming with their desires. Right? That is what 
they want.
    I am not sure I got an answer. I got an answer, but there 
are two ways traditionally leverage is viewed. It is carrots 
and sticks. Ambassador, you indicated that--and I do not 
disagree with your overall premise that the best thing we could 
do for our interest, their interest, is to use our good offices 
to accommodate, as best we can, a continued movement toward 
rapprochement between the Indians and the Pakistanis, 
ultimately hopefully ending where you suggested. But in the 
meantime, there are specific requests being made by the 
military and not just fighter aircraft.
    You have, for example, the Council on Foreign Relations 
recommending shifting the balance of U.S. aid from a 1 to 1 
ratio to a 1 to 2 ratio. When I raise that with the 
administration, they make a very fervent plea that it will have 
the very impact, doctor, you suggested, that it will just 
exacerbate an already strained relationship with lack of trust 
with the military. Therefore, we cannot do that. Listening to 
you, Madam Ambassador, it sounds to me like that would be 
something that might make some sense from your perspective.
    Let us just be very specific. Good policy, bad policy for 
the U.S. Congress to insist that we shift the ratio, $2 non-
military for every military dollar, keeping the amount the 
same. What is the impact of that?
    Ambassador Schaffer. Senator, when you have a chance to 
take a look at my statement, I have actually recommended that 
in my statement. I agree with the Council on Foreign Relations' 
recommendation. I have also argued that the economic aid ought 
to be given essentially without foreign policy conditions, but 
that military supply ought to reflect our judgment of whether 
Pakistan's foreign and security policies are compatible with 
ours.
    There also, however, are a whole lot of ways that we can 
rebuild relations with the military that do not necessarily 
involve weapons systems.
    Senator Biden. Let me be very specific. What impact do you 
believe such a change in policy would have upon the military 
today? The policy gets passed today by the Congress. The 
President supports it or his veto is overridden. It is now 
policy. The aid is now 1 to 2. What is the impact in your view 
immediately as it relates to our ability to influence? What 
impact does that have on the military and on Musharraf?
    Ambassador Schaffer. I think that if you couple this with a 
serious diplomatic effort, the military gets over its 
disappointment. I think what they are going to be watching more 
than the appropriations even, although they will be watching 
that very carefully, is what gets delivered.
    They also prize very much the professional relationships 
that they have with the U.S. military. One of the unfortunate 
things that happened when we imposed sanctions in 1990--and I 
was in government at the time--was that the broad sweep of the 
Pressler amendment required us to cutoff international military 
education and training, to make them pay for anybody they might 
wish to send to West Point. There was a whole range of 
professional contacts that got cutoff as a result, which I 
believed at the time and still believe was very short-sighted.
    Obviously, changing the ratio of our aid is not going to 
make them happy, but I think if you put it in a policy context, 
where we are in fact trying to facilitate forward movement on 
the peace process, which is something Pakistan professes to 
have wanted for 50 years, that they would get over their 
disappointment and ultimately there will still be enough 
military supply there to be interesting to them.
    Senator Biden. Do you agree, Dr. Weinbaum?
    Dr. Weinbaum. Yes, I do. I think that is indeed the only 
course we have. It would be wonderful if we could say let us 
have more money for the social sector, as well as satisfy the 
military, but your assumption here was we are dealing with the 
same----
    Senator Biden. No, no. Let us understand. As I understand 
the reason for the ratio, it is not so much dealing with the 
limited funds. It is to make a political point.
    So, doctor, let me ask it this way. Let us assume we double 
the amount of money and we keep the ratio 1 to 2 instead of 1 
to 1. Madam Ambassador, is it your view that this relates to 
the amount or the allocation of the formula?
    Ambassador Schaffer. I would say that amount is probably 
more important.
    Senator Biden. So if in fact we were to be able to----
    Ambassador Schaffer. Let me make sure I express myself 
properly, Senator. I think that for the Pakistan army, looking 
at what they get from the United States, getting more is better 
and getting more is more important than getting a higher 
percentage.
    Dr. Nasr. Senator, at this particular time, the Pakistan 
military is the Pakistan Government. The kind of distinction we 
might have in another part of the world where giving to the 
military is different from giving to the civilian government, 
they control large parts of the public sector, private sector, 
and even the aid that we would give to Pakistan will still 
strengthen the military position in politics.
    Senator Biden. So it does not matter then.
    Dr. Nasr. I think they would cry wolf or they may try to 
use----
    Senator Biden. If you are correct, which I do not doubt 
that you are, then what difference does it make? Why do we go 
through this effort? Why would I spend the time here to try to 
go through a battle to change the ratio when in fact what you 
are saying is it does not matter?
    Dr. Nasr. Well, politically it does not matter.
    Senator Biden. Why does it politically not matter?
    Dr. Nasr. Because it strengthens the military either way. 
But in terms of at least if you were to give the money for 
public schools--the program will be run by the military. A 
general will be put in charge of it--at least you know that the 
money is not going to hardware that has no economic or social 
impact on Pakistan. But either way, the military is going to 
get strengthened through this process.
    Dr. Weinbaum. And this is one of the problems that we have. 
So many people in Pakistan at this point, unfortunately, view 
our support for Musharraf as support for the military, and by 
virtue of that, that it means support for the military rather 
than for civilian government and democracy. That is something I 
do not know how we get through right now because they are one 
and the same. Indeed, what happens in Pakistan repeatedly now 
is when Musharraf takes decisions, which have a non-democratic 
coloration to them, too many people in Pakistan say, well, that 
is the way the United States wanted it, that this is something 
we are signing on with, even though, of course, we may actually 
have objections. Unfortunately, we do not raise those 
objections, or if we do, we raise them in such a low voice and 
so privately that the Pakistani people do not hear them.
    Ambassador Schaffer. Senator, there is one other dimension 
of this question of the balance between economic and military 
assistance, and that is the conditionality. Part of my argument 
is that on military supply in particular we should apply a 
filter looking at what Pakistan's policies are and what they 
are likely to become before making decisions. I am not focused 
so much on the amount, but on the types of equipment that we 
finance.
    Senator Biden. Give me an example, please.
    Ambassador Schaffer. The best example is the F-16s. Before 
deciding to go ahead with a new F-16 deal, I would want to be 
very confident that the Pakistanis really had closed down their 
support for insurgency in Kashmir and that the peace process 
had gone enough more rounds that it looked much more robustly 
on track than it is now.
    You could apply the same logic to the possibility of other 
unattractive discoveries in nuclear transfers. Those are the 
two issues that I am most concerned about in Pakistan's foreign 
and security policy.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Biden. We 
thank each of you as witnesses for the preparation of your 
papers, and likewise for your very forthcoming responses to our 
questions. I think we have had a good hearing, and we 
appreciate your contribution and that of all members.
    The hearing is adjourned.
    [Whereupon, at 11:48 a.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                                 <all>

</pre></body></html>
